<html>
<title> - H.R. 2912, TO REAFFIRM THE INHERENT SOVEREIGN RIGHTS OF THE OSAGE TRIBE TO DETERMINE ITS MEMBERSHIP AND FORM OF GOVERNMENT.</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]




 
   H.R. 2912, TO REAFFIRM THE INHERENT SOVEREIGN RIGHTS OF THE OSAGE 
       TRIBE TO DETERMINE ITS MEMBERSHIP AND FORM OF GOVERNMENT.

=======================================================================

                       LEGISLATIVE FIELD HEARING

                               before the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

               Monday, March 15, 2004, in Tulsa, Oklahoma

                               __________

                           Serial No. 108-87

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
92-525                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
W.J. ``Billy'' Tauzin, Louisiana     Eni F.H. Faleomavaega, American 
Jim Saxton, New Jersey                   Samoa
Elton Gallegly, California           Neil Abercrombie, Hawaii
John J. Duncan, Jr., Tennessee       Solomon P. Ortiz, Texas
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Ken Calvert, California              Calvin M. Dooley, California
Scott McInnis, Colorado              Donna M. Christensen, Virgin 
Barbara Cubin, Wyoming                   Islands
George Radanovich, California        Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Jay Inslee, Washington
    Carolina                         Grace F. Napolitano, California
Chris Cannon, Utah                   Tom Udall, New Mexico
John E. Peterson, Pennsylvania       Mark Udall, Colorado
Jim Gibbons, Nevada,                 Anibal Acevedo-Vila, Puerto Rico
  Vice Chairman                      Brad Carson, Oklahoma
Mark E. Souder, Indiana              Raul M. Grijalva, Arizona
Greg Walden, Oregon                  Dennis A. Cardoza, California
Thomas G. Tancredo, Colorado         Madeleine Z. Bordallo, Guam
J.D. Hayworth, Arizona               George Miller, California
Tom Osborne, Nebraska                Edward J. Markey, Massachusetts
Jeff Flake, Arizona                  Ruben Hinojosa, Texas
Dennis R. Rehberg, Montana           Ciro D. Rodriguez, Texas
Rick Renzi, Arizona                  Joe Baca, California
Tom Cole, Oklahoma                   Betty McCollum, Minnesota
Stevan Pearce, New Mexico
Rob Bishop, Utah
Devin Nunes, California
Randy Neugebauer, Texas

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on Monday, March 15, 2004...........................     1

Statement of Members:
    Carson, Hon. Brad, a Representative in Congress from the 
      State of Oklahoma..........................................     3
    Cole, Hon. Tom, a Representative in Congress from the State 
      of Oklahoma................................................     4
    Kildee, Hon. Dale, a Representative in Congress from the 
      State of Michigan..........................................     4
    Lucas, Hon. Frank D., a Representative in Congress from the 
      State of Oklahoma..........................................     5
        Prepared statement of....................................     7
    Pombo, Hon. Richard W., a Representative in Congress from the 
      State of California........................................     1
        Prepared statement of....................................     2

Statement of Witnesses:
    Freeman, Mark, Councilman, Osage Tribe.......................    17
        Prepared statement of....................................    19
    Gray, Jim, Principal Chief, Osage Tribe......................    14
        Prepared statement of....................................    16
    Hanna, Jeanette, Regional Director, Eastern Oklahoma Regional 
      Office, Bureau of Indian Affairs, U.S. Department of the 
      Interior, Muskogee, Oklahoma...............................    10
        Prepared statement of....................................    11
    Lookout, Cynthia Cherise, Hominy, Oklahoma...................    34
        Prepared statement of....................................    36
    Moore, Jessica Rosemary, Fairfax, Oklahoma...................    32
        Prepared statement of....................................    33
    Yarbrough, R.E., President, Osage Shareholders Association...    30
        Prepared statement of....................................    31

Additional materials supplied:
    West, Mrs. Howard M., Jr., Pawhuska, Oklahoma, Letter 
      submitted for the record...................................     8
    Wood, Rosemary, Osage Nation Membership, Statement submitted 
      for the record.............................................     7


   LEGISLATIVE FIELD HEARING ON H.R. 2912, TO REAFFIRM THE INHERENT 
  SOVEREIGN RIGHTS OF THE OSAGE TRIBE TO DETERMINE ITS MEMBERSHIP AND 
                          FORM OF GOVERNMENT.

                              ----------                              


                         Monday, March 15, 2004

                     U.S. House of Representatives

                         Committee on Resources

                            Tulsa, Oklahoma

                              ----------                              

    The Committee met, pursuant to call, at 10:00 a.m., in the 
Evergreen Room, Post Oak Lodge, 5323 West 31st Street North, 
Tulsa, Oklahoma, Hon. Richard W. Pombo [Chairman of the 
Committee] presiding.
    Members Present: Representatives Pombo, Cole, Kildee, and 
Carson.
    Also Present: Representative Lucas.
    The Chairman. If we may come to order. I'd like, at this 
time, to recognize Congressman Frank Lucas for our opening and 
closing ceremonies here.
    Mr. Lucas.
    Mr. Lucas. Thank you, Mr. Chairman. In a moment, we'll rise 
for Presentation of Colors by Dominic Brown, who is a Veteran 
of the U.S. Army in the Gulf War; also, John Williams, Jr., a 
Veteran of Operation Desert Storm and Desert Shield; and 
Romaine Shackelford, who is a Veteran of the European Theater 
during World War II. That will be followed by our singers of 
the Flag Song, Vann Bighorse, Mary Bighorse, Scott George, 
Kenny Bob Bighorse, Julia Lookout. Then, Chief Jim Gray will 
lead us in the Pledge of Allegiance. And that will be followed 
by Paul Stabler, who will deliver the invocation in the Osage 
language.
    Mr. Chairman, if we might rise for the Presentation of 
Colors.
    [Pledge of Allegiance.]
    [Singing of the Flag Song.]
    [Invocation.]
    The Chairman. Well, thank you very much.

  STATEMENT OF THE HON. RICHARD W. POMBO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    The Chairman. The Committee is meeting today to hear 
testimony on H.R. 2912, a bill sponsored by Congressman Lucas 
to reaffirm the inherent sovereign rights of the Osage Tribe to 
determine its membership and form of government.
    At this time, I'd like to ask unanimous consent for the 
gentleman from Oklahoma, Mr. Lucas, to be able to sit and 
participate in the hearing.
    Without objection. So ordered.
    Ordinarily, opening statements are limited to the Chairman 
and Ranking Minority Member. Because of the importance of this 
bill to members attending the hearing today, I will recognize 
each member present for 5 minutes in which to give any oral 
statement they may have. And, as always, members' written 
statements can be included in the hearing record under 
unanimous consent request.
    The purpose of today's hearing is to examine H.R. 2912, 
which basically puts the Osage Tribe on the same footing as 
every other sovereign federally recognized tribe in the United 
States in terms of defining its own membership criteria and 
form of government.
    The Osage appear to be the only federally recognized tribe 
by which a specific Act of Congress, which passed nearly a 
hundred years ago, dictates its form of membership and 
government. Whatever the historical and legal circumstances 
surrounding Congress' action, it's past time to consider 
letting the Osage Tribe decide how to govern itself as it sees 
fit, providing that no one loses any property or other vested 
legal rights in the process.
    Under the Osage Allotment Act of 1906 and under subsequent 
Federal Court decisions, the only legal members of the Osage 
Tribe are the lineal descendants and those Osage persons living 
before July 1st, 1907, who also have what is called a headright 
share.
    A headright share is a share of the royalties, the mineral 
development in the Osage Reservation. This has resulted in 
people who have a high degree of Osage blood from being members 
of the Tribe. It's safe to say the 1906 Act stemmed from a 
rationale that is far outdated. I hope today's witnesses will 
shed more light on the history of why the 1906 Act was passed, 
and whether H.R. 2912 would benefit the Osage Tribe and the 
Osage people as a whole.
    I'd like, at this time, to recognize Mr. Dale Kildee, who 
over the years has been extremely valuable and very involved 
with a number of Native American issues. And I am very glad and 
very happy that he made the effort to be here for this very 
important hearing.
    [The prepared statement of Mr. Pombo follows:]

          Statement of The Honorable Richard Pombo, Chairman, 
                         Committee on Resources

    The purpose of today's hearing is to examine H.R. 2912, which 
basically puts the Osage Tribe on the same footing as every other 
sovereign, federally recognized tribe in the United States in terms of 
defining its own membership criteria and form of government.
    The Osage appears to be the only federally recognized tribe by 
which a specific Act of Congress, which was passed nearly 100 years 
ago, dictates its form of membership and government.
    Whatever the historical and legal circumstances surrounding 
Congress's action, it's past time to consider letting the Osage tribe 
decide how to govern itself as it sees fit, providing that no one loses 
any property or other vested legal rights in the process.
    Under the Osage Allotment Act of 1906 and under subsequent federal 
court decisions, the only legal members of the Osage Tribe are the 
lineal descendants of those Osage persons living before July 1, 1907, 
who also have what is called a ``headright share.'' A headright share 
is a share in the royalties from mineral development in the Osage 
Reservation.
    This has resulted in people who have a high degree of Osage blood 
from being members of the tribe.
    It's safe to say the 1906 Act stemmed from a rationale that is far 
outdated. I hope today's witnesses will shed more light on the history 
of why the 1906 Act was passed, and whether H.R. 2912 would benefit the 
Osage tribe and the Osage people as a whole.
                                 ______
                                 
    The Chairman. Mr. Kildee.
    Mr. Kildee. Mr. Chairman, with your indulgence, I yield 
first to Mr. Carson, and then come back to myself.
    The Chairman. That's fine.
    Mr. Carson.

STATEMENT OF THE HON. BRAD CARSON, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF OKLAHOMA

    Mr. Carson. Thank you, Mr. Kildee, for yielding. It's nice 
to be back in Osage County, which used to be my Congressional 
District. But I have to confess. The Post Oak Lodge was not in 
that place. That leads you to a brown field in West Tulsa. So, 
I apologize for my tardiness here today and to Chief Gray and 
to the other members of the Osage Nation. Thank you for being 
here and for excusing my lateness.
    I'd like to thank our Ranking Member Kildee for his kind 
words and for yielding to me and Chairman Pombo for scheduling 
this hearing today, so we can receive testimony on H.R. 2912, 
which, as the Chairman said, is legislation reaffirming the 
Osage Tribe's inherent right to determine its own membership 
and also importantly its own form of government. I am a strong 
supporter of this legislation and a co-sponsor of Congressman 
Lucas' bill.
    I would also like to welcome the witnesses here today, many 
of whom are my good friend. I look forward to listening to 
their testimony.
    As the Chairman said, Congress passed a law limiting the 
membership of the Osage Tribe in 1906, long before any of us in 
this room were alive. This law was born out of an error in 
which termination and assimilation were the normal and accepted 
Federal policy toward Indians. At that time, it was expected 
that the Osage Tribe would fade and disappear into the dominant 
American society. However, and thankfully, that has not 
happened, and the tide in Federal Indian policy has shifted a 
hundred and eighty degrees toward Tribal self determination and 
self governments.
    It is now time for Congress to reaffirm the inherent right 
of the Osage Tribe to determine its own membership and form of 
government. It is my hope that if this legislation is enacted 
into law, the Osage Tribe will be able to set their own 
membership criteria, thus welcoming many more members into the 
Tribe. And as a result, a greater number of current and future 
generations of Osage children will qualify for Indian 
scholarships, Indian health care, and other benefits reserved 
for members of federally recognized Indian Tribes. 
Additionally, Osage people will no longer have to wait for the 
death of a beloved family member before being allowed a voice 
in the tribal government. The Osage Tribal Council has 
attempted to establish its own membership criteria in the past. 
But it is now clear that the ability to correct this age old 
matter lies with us in Congress.
    I respectfully urge my colleagues to support H.R. 2912, and 
it's a pleasure to have this hearing today in the beautiful 
hills of Osage County.
    With that, I will go back to Mr. Kildee.
    The Chairman. Mr. Cole.

 STATEMENT OF THE HON. TOM COLE, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF OKLAHOMA

    Mr. Cole. Thank you very much, Mr. Chairman. It is a 
particular privilege for me to have the opportunity to be here 
as an enrolled member of the Chickasaw Nation, and particular 
opportunity for all of us to embrace and reaffirm the sovereign 
right of the Osage people and the right of all Native American 
people to self government and self determination.
    As Congressman Carson said, there was a time, sadly, in our 
history when that was not the case. And I think it's a good 
thing that we moved well away from that. It's particularly 
important for us, I think, here in Oklahoma to re-emphasize the 
history of the different sovereign nations and tribes that have 
been part of our geography and part of our history for so long 
and to recognize what a critical part of our own imagine they 
are, what a critical part of our own past and present they are, 
and more importantly, what a critical part of our own future 
they are. It's a heritage that our state should embrace and 
celebrate. And frankly, the Tribe who has contributed so much 
now continues to contribute to increasing the economic 
prosperity, growth, and future prospects of the state, 
something we should never ever forget.
    Particularly appreciative of Congressman Lucas for taking 
such an important lead role in this critical legislation. He 
embraces many tribes in his now enlarged district. He's been a 
selfless champion of those.
    I want to join the Chairman in thanking my good friend, 
Representative Kildee, for making such a long journey to come 
down here, as well.
    Mr. Chairman, thank you for seeing fit to hold a 
Congressional Hearing on this important issue in Oklahoma, and 
more particularly within the Osage Nation. So, I look forward 
to hearing the testimony, and very much privileged to have an 
opportunity to participate in this. I'm hopeful that Congress 
will act on this important legislation favorably and quickly.
    Thank you very much, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Kildee.

   STATEMENT OF THE HON. DALE E. KILDEE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Kildee. Thank you, Mr. Chairman. And thank you for 
scheduling this hearing today in the Osage Reservation. I'd 
like to acknowledge Chief Jim Gray from Washington and the 
Osage Tribal Council Members, Wilson Pipestem, whom I've known 
for many years, and particularly Mr. Mark Freeman, who I met in 
Washington D.C., and his grandson, Aaron.
    Aaron, when I met you--I've known several generations here 
now. But when I met you, it put me in mind of my own son who 
returned from Baghdad last night. So, thanks for reminding me 
of him.
    This is a very important issue. I support H.R. 2912 as a 
bill that would reaffirm the very inherent right of the Osage 
Tribe to determine its own citizenship. I tend to use the word 
citizenship rather than membership. I try to remind people in 
Congress that--I had to remind a candidate for Governor one 
time that sovereign tribes are not social clubs. They are 
sovereign tribes.
    Article 1, Section 8 of the Constitution, which I carry 
with me all the time, defines--it doesn't grant you your 
sovereignty. It recognizes your sovereignty. So, I generally 
refer to the term citizenship rather than membership.
    Particularly when I talk to young Native Americans when 
they come to Washington, I remind them that I have two 
citizenships. I'm a citizen of the United States, and I'm a 
citizen of the state of Michigan, but they have three 
citizenships. They're citizens of the United States, and they 
have proven it over and over again. Proportionately, more 
Native Americans have served in our armed forces and other 
groups. They're a citizen of whatever state they may be, and 
they're a citizen of their respective tribes. And they have 
rights and responsibilities that flow from those three 
citizenships.
    The 1906 Federal Osage Allotment Act and subsequent 
amendments and Federal regulations provide, among other things, 
that only persons with a headright share of subsurface mineral 
estates may vote in tribal elections.
    You can't just be somewhat sovereign. Sovereignty is 
sovereignty. Sovereignty means that you can determine your 
citizenship. It's inherent, sovereignty. And sovereignty also 
gives you the right to form your own type of government, not be 
told how many chiefs or sub-chiefs, but form your own type of 
government. And this was--you're treated differently than the 
other over five hundred tribes in this country. And what we, I 
think, have an obligation to do is, when we see an injustice--
that's why I'm very grateful to Mr. Pombo for having this 
hearing. When we see an injustice, then we try to remedy that 
injustice. Mr. Lucas' bill, which is well written and well 
drafted, will remedy that injustice, and lets you exercise the 
full sovereignty that you had before the Europeans, my 
ancestors, settled here.
    The sovereignty we know is affirmed by the U.S. Supreme 
Court in John Marshall's Decision. It's a retained sovereignty. 
It wasn't something given to you. You retained it. It's a very, 
very important claim that all you're asking is that we 
recognize all that flows from your retained sovereignty. We're 
giving you nothing. We're recognizing that sovereignty. We're 
recognizing all the rights that flow with that sovereignty.
    Thank you, Mr. Chairman.
    The Chairman. Mr. Lucas.

   STATEMENT OF THE HON. FRANK D. LUCAS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF OKLAHOMA

    Mr. Lucas. Thank you, Mr. Chairman.
    Mr. Chairman, Ranking Member, and fellow members of 
Congress, I appreciate you bringing the Resources Committee to 
Oklahoma to the Third District of Oklahoma to Osage County to 
be among the Osage people for this very important hearing. And 
I look forward to listening to your statements and the 
testimony from members of the Osage Tribe, as well as others 
involved with Indian affairs.
    The language and culture of the Osage Tribe have a long 
lasting effect in and around Oklahoma. Contributions they have 
made and their strong unified presence led to the Osage Tribe 
becoming federally recognized. However, because, as we've 
discussed, of a law created in 1906, the Osage Tribe was not 
afforded the same rights as every other federally recognized 
tribe. And according to that law, membership will be extended 
only to those who own a share of the Osage mineral estate and 
their descendants.
    Today, there are literally thousands of Osages denied the 
benefits of membership to the Tribe simply because they do not 
hold a share of the estate.
    Currently, all federally recognized tribes throughout 
Oklahoma and the United States determine for themselves the 
criteria for membership and their system of government. The 
only exception is the Osage Tribe.
    This disparate Federal policy has adversely affected many 
individuals, including young Osages who have been prohibited 
from taking advantage of Indian programs. I believe we owe it 
to them to work toward a solution to this problem, so that they 
will have the same opportunities as members of every other 
federally recognized tribe.
    The bill I introduced, H.R. 2912, to reaffirm the inherit 
sovereign rights of the Osage Tribe to determine its membership 
and form of government, was designated to--was designed to 
clarify the ninety-eight year old law. It's intended to put the 
Osage Tribe on equal footing with all the other federally 
recognized tribes by allowing them to determine their own 
membership criteria and system of government while protecting 
the headrights of the shareholders.
    And, Mr. Chairman, in addition to today's testimonies, I 
know that you and the Committee will continue to receive 
comments from those directly affected by the bill in the coming 
days. And I would like to take this opportunity to remind 
everyone of the importance of making that input available. And 
I know the constraints of the Committee today simply do not 
allow everyone probably to offer all the comments they'd like 
to. So, I'd like to encourage my constituents, our friends out 
here, to send their comments to either my office in Washington 
D.C. or to the Resources Committee if they have additional 
points or opinions. And I can assure you your words carry 
weight and will be helpful to the members of Congress as we 
work to craft the most beneficial legislation possible for the 
Osage people.
    Once again, Mr. Chairman, thank you. And thank you to the 
House Resources Committee for this hearing today.
    The Chairman. Well, thank you. As to your last comment, I 
will tell everybody that is here that we will hold the official 
Congressional record open for 10 days to allow people to submit 
additional comments. We were not able to accommodate everybody 
who wanted the opportunity to testify. And I have already 
received one written statement from a Ms. Rosemary Wood, and I 
asked that that be submitted to the record at the appropriate 
point by unanimous consent. And I know there are additional 
people here who desire that additional information be included 
in the official record. All you have to do is print it out, and 
submit it to the Resources Committee. And Congressman Lucas' 
office can forward anything that you submit to the Resources 
Committee, and it will be included in the record as part of the 
official hearing.
    [The prepared statement of Mr. Lucas follows:]

Statement of The Honorable Frank D. Lucas, a Representative in Congress 
                       from the State of Oklahoma

    Mr. Chairman and fellow Members of Congress, I appreciate you 
making the trip to Oklahoma today for this important hearing. I look 
forward to listening to your statements and to the testimonies from 
members of the Osage Tribe, as well as others involved with Indian 
Affairs.
    The language and culture of the Osage Tribe has had a lasting 
effect in and around Oklahoma. The contributions they have made and 
their strong, unified presence led to the Osage Tribe becoming 
federally recognized. However, because of a law created in 1906, the 
Osage Tribe was not afforded the same rights as every other federally 
recognized tribe. According to that law, membership would be extended 
only to those that owned a share in the Osage mineral estate and their 
descendants. Today, there are thousands of Osage Indians denied the 
benefits of membership to the tribe simply because they do not hold a 
share of the estate.
    Currently, all federally recognized tribes throughout Oklahoma and 
the United States determine for themselves criteria for membership and 
their system of government. The only exception is the Osage Tribe. This 
disparate federal policy has adversely affected many individuals, 
including young Osages, who are prohibited from taking advantage of 
Indian programs. I believe we owe it to them to work towards a solution 
to this problem so that they will have the same opportunities as the 
members of every other federally recognized tribe.
    The bill I have introduced, H.R. 2912, to reaffirm the inherent 
sovereign rights of the Osage Tribe to determine its membership and 
form of government, was designed to clarify the 98-year-old law. It is 
intended to put the Osage Tribe on equal footing with all other 
federally recognized tribes by allowing them to determine their own 
membership criteria and system of government while protecting the 
headrights of the shareholders.
    Mr. Chairman, in addition to today's testimonies, we will continue 
to receive comments from those directly affected by the bill in the 
days to come. As much as we would like to give everyone a chance to 
testify, time constraints simply do not allow it. However, I would like 
to take this opportunity to encourage those who would like to share 
their views on this important bill to send their comments either to my 
office in Washington or to the Resources Committee. I can assure you 
that your words will carry weight and will be helpful to Members of 
Congress as we work to craft the most beneficial legislation for the 
Osage people. Thank you.
                                 ______
                                 
    [The statement submitted for the record by Ms. Wood 
follows:]

         Statement submitted for the record by Rosemary Wood, 
                        Osage Nation Membership

    My name is Rosemary Wood. I am an Osage Indian of/2 Indian blood 
and owner of over one share in the Osage Mineral Estate. I live on 
original allotment land in the Osage and I served on the Osage Tribal 
Council for two consecutive terms from 1994 through 2002.
    I thank you for taking your time to be here today and for this 
opportunity to provide input concerning the bill which is now before 
you.
    I do support this bill. I believe all sovereign nations have the 
right to determine their own system of government. More over, I believe 
all people have the right to determine how and by whom they shall or 
shall not be governed. This has not been the case for the Osage people 
since 1906,
    Property rights have been and are currently the defining criteria 
for membership, or citizenship, in the Osage Nation. Osage people who 
do not own a share in the Mineral Estate are not qualified to hold 
membership, to vote or to hold office.
    The United States of America has built a Federal Government which 
serves as a model for other nations. A government based on individual 
rights and equality under the law. America so believes in 
representative government that America has withdrawn trade relations 
with those who insist on policies of economic or political 
discrimination, such as the apartheid system of South Africa. Yet, 
within the very boundaries of the United States itself there exists a 
tribal government more closely resembling apartheid than democracy.
    Four Councils have passed resolutions defining membership as all 
lineal descendants of the original allottees. The BIA has turned a deaf 
ear to tribal laws defining membership and has insisted on a narrow 
interpretation of the Osage Indian Allotment Act of 1906 reserving 
membership to those with mineral estate shares.
    It is with pride and gratitude that I encourage representative of 
the United States Government and those of the Osage Nation's Government 
to continue their efforts to rectify this injustice and give all Osage 
equality under the law.
                                 ______
                                 
    [A letter submitted for the record by Mrs. Howard M. West, 
Jr., Pawhuska, Oklahoma, follows:]



412 E. 15`h Street
Pawhuska, OK 74056
March 19, 2004

Honorable Richard Pombo
Chairman, Resources Committee
1324 Longworth House Office Building
Washington, DC 20515

RE: H.R. 2912

Dear Representative Pombo:

    Words cannot convey the gratitude I have for you convening the 
field hearing on H.R. 2912 here in Oklahoma and to the members and 
staff of the Resources Committee and Representative Lucas who took the 
time and trouble to give our Osage people the opportunity to express 
our reasons for needing a change in our Osage Nation's government. I am 
requesting that you place this letter in the official record for the 
hearing as my testimony on H.R. 2912..
    I have been a shareholder since age 18 (I am now 78) when my dear 
father, a full-blood Osage and original allottee, passed away; and I 
have never thought it was right to have to lose a loved one in order to 
be able to participate in one's tribal government.
    And yes, as far as I know, Osages have the unique distinction of 
being the only Indian Nation in the United States to require property 
ownership (in the mineral trust) to be considered a citizen with voting 
rights. Was not the Twenty-fourth Amendment (Section 1) of the U.S. 
Constitution enacted for the express purpose of abolishing that 
requirement?
    At the time of allotment (1906), there was a language and cultural 
barrier that no longer exists. Consequently, we are fully able to 
express our wishes and to understand more completely the changes we 
seek. in our government <SUP>1</SUP>.
---------------------------------------------------------------------------
    \1\ I know of two brothers who were bequeathed land instead of 
headright interests because their father wanted to make sure his third 
set of young children would be provided for until they were grown-the 
older sons were already grown, but they never were able to vote or hold 
office.
---------------------------------------------------------------------------
    No doubt, at the time, the federal government established the Code 
of Federal Regulations, or its predecessor, for their Osage wards' 
protection; but alas, at the same time it hamstrung our Osage Nation's 
ability and initiative to handle our own affairs-as we had been doing 
from time immemorial. For the past 10 years we Osages have been paying 
the price for the federal government's well-meaning but inept 
intentions. But who could foresee the future? Despite technology, 
humanity still has unresolved problems.
    How many laws have been enacted, expanded, or even changed since 
the founding of this country? Especially in the past century? So it 
stands to reason that the rules by which our Osage Nation is governed 
should change too.
    And, incidentally, I was so pleased that Representative Kildee made 
the distinction between ``citizenship'' and ``membership'' when 
alluding to the issues addressed by H.R. 2912.
    And as far as some of our non-shareholders taking so long to 
approach Congress about the inequity of our government participation, 
it has been tried before. There was the Logan vs. Andrus case in 
federal court, but the court ruled that it was not the proper 
``aggrieved parties'' who sued.
    Then in the early 1970's, three young, non-shareholding Osage men 
<SUP>2</SUP> approached then Senator Henry Bellmon, of Oklahoma, who 
said he would introduce such a bill if they would bring him three 
hundred signatures on a petition. They did and he did. But the bill 
failed because too many of the Osage share-holders were afraid the non-
shareholders, who numbered in the majority of the tribe, would want to 
redistribute the mineral estate, despite the assurances it would not be 
done.
---------------------------------------------------------------------------
    \2\ Andrew Gray, Jr., oldest brother of our present Chief, James 
Gray; Howard West III, my son; and Charles Pratt, Jr., first Principal 
Chief of the unrecognized Osage National Government.
---------------------------------------------------------------------------
    Then again in 1986, our people were faced with three crises: (1) 
the status of the government after the demise of the last original 
allottee; (2) erosion of our land base by sale and enforcement of 
eminent domain; and (3), dissatisfaction by some of us with how our 
business was being handled, or not being handled. Except for oil 
companies, business and industry did not want to deal with a nation (or 
tribe) divided. Our economic development has been stymied all these 
years.
    So some of the descendants of the Osage 1881 Constitution 
signatories, by which we were governed after our removal here from 
Kansas, approached our then Osage Tribal Council to explore the 
possibility of reaching an accommodation that would include and be of 
benefit to all of Nation. Unfortunately, the Osage Tribal Council 
lacked the vision to see beyond the mineral estate and the dilution of 
their power-which your panel so astutely observed as being the case 
with most political situations.
    So the descendants appealed to our congressmen and the Bureau of 
Indian Affairs to help us resolve this dilemma. Both entities appeared 
to be reluctant-or frightened-to use their legislative authority to 
rectify this abominable travesty.
    With nothing to lose, the descendants of the signatories of the 
1881 Constitution met in convention according to the rules of the 1881 
Constitution to reactivate, restore, and amend that document.
    It was only as a last resort that we sued the Unites States, the 
Secretary of the Interior (who represents the BIA); and our Osage 
``Tribal'' Council (who represents only shareholders). This was the 
beginning of Fletcher et al vs. United States et al. <SUP>3</SUP>
---------------------------------------------------------------------------
    \3\ Two Osage shareholders, William S. Fletcher and Juanita W. 
West; and two Osage nonshareholders, Ida B. Woody (who was age 80 at 
the time) and Charles Pratt, Jr., one of the young men mentioned above 
and who only recently did he become a shareholder upon the death of his 
mother. These 4 represented some 200 Osage citizens who registered at 
our initial convention and desired a change in our Osage government.
---------------------------------------------------------------------------
    Finally, in 1994 (after much time, effort and expense) our National 
Council prevailed and there was an election for every Osage citizen 
over 18 years of age. The ``Tribal'' Council was relegated to simply 
``overseeing'' the mineral estate, i.e. approving leases.
    Astonishingly, the Chief of the Osage Tribal Council whom we had 
originally approached (but who denied us an audience) was elected 
President of the National Government. His successor, and the Osage 
Tribal Council, appealed the federal district court's decision (after 
we had an election), so we all went to the Tenth Circuit Court of 
Appeals in Denver. Despite a valiant effort on our Plaintiffs' part and 
that of our attorney, the Tenth Circuit Court referred us back to 
Congress. How many times must we get the run-around?
    At last we have a chief and council who listen to the people. That 
is why we are so heartened by your Committee's holding a field hearing 
instead of having it in Washington. Which only a few of us were able to 
do in the past- more than once.
    I represent no one's opinion but my own, but from the bottom of my 
heart, I thank you for this hearing.

Sincerely,

Mrs. Howard M. West, Jr.

cc: Hon. Dale Kildee
   Hon. Brad Carson
   Hon. Tom Cole
   Hon. Frank Lucas
                                 ______
                                 

    [NOTE: Information submitted for the record by Terry D. 
Kennedy, Wynona, Oklahoma, has been retained in the Committee's 
official files.]

    The Chairman. I would like to call up our first witness, 
Ms. Jeanette Hanna, the Bureau of Indian Affairs Regional 
Director for Eastern Oklahoma.
    I'd like to take this time to remind all of today's 
witnesses that under our Committee rules oral statements are 
limited to 5 minutes. Your entire statement will appear in the 
record as submitted.
    The Committee regularly swears in witnesses at hearings.
    And if I could ask you to stand and raise your right hand.
    Do you solemnly swear or affirm under the penalty of 
perjury that the responses given and the statements made will 
be the whole truth and nothing but the truth?
    The record shows she answered in the affirmative.
    Thank you very much for being here with you us today.
    And when you're ready, you can begin.

STATEMENT OF JEANETTE HANNA, DIRECTOR, EASTERN OKLAHOMA REGION, 
   BUREAU OF INDIAN AFFAIRS, U.S. DEPARTMENT OF THE INTERIOR

    Ms. Hanna. Thank you, Mr. Chairman.
    Good morning, Mr. Chairman and members of the Committee. My 
name is Jeanette Hanna. I'm the Regional Director for the 
Eastern Oklahoma Region of the Bureau of Indian Affairs. I am 
pleased to be here on the Department's behalf to discuss their 
position on H.R. 2912.
    The Department supports a legislative solution to correct 
this longstanding issue to the Osage Tribe. This legislation 
will resolve a long history of uncertainty among the Indian 
people who can trace their family heritage to the Osage Tribe, 
yet due to the governing statute enacted in 1906, only tribal 
individuals with an ownership interest in the mineral estate 
can be officially recognized as member of the Tribe.
    H.R. 2912, if enacted, will allow the recognized Osage 
Tribal Government to be the official representative of all 
Osage people. The bill will allow all Osage tribal members to 
participate in tribal matters including the selection of their 
leadership.
    The Department has met with Principal Chief and other 
elected officials of the Osage Tribe who advised us of their 
intent to seek a legislative remedy regarding this membership. 
One concern the Department has is the Federal Government has 
held that the tribal government must adhere to the 1906 Act 
provisions. The judiciary recognized that the legislative 
branch is an entity that had to make any change in form 
mandated by the 1906 Act.
    If H.R. 2912 is enacted, we, the Department, will be happy 
to work with the Osage Tribe at its request to assist in 
conducting an election to implement the provisions of the bill. 
We also recommend that there should be an express provision in 
the bill that prohibits any form of government that diminishes 
the property interests of the headright holders.
    That concludes my statement. I'll be happy to answer any 
questions.
    [The prepared statement of Ms. Hanna follows:]

    Statement of Jeanette Hanna, Director, Eastern Oklahoma Region, 
       Bureau of Indian Affairs, U.S. Department of the Interior

    Good morning, Mr. Chairman and Members of the Committee. My name is 
Jeanette Hanna, and I am the Director for the Bureau of Indian Affairs 
(BIA) Eastern Oklahoma Region. I am pleased to appear before the 
Committee today to present the Department's position on H.R. 2912, ``a 
bill to affirm the sovereign rights of the Osage Tribe to determine its 
membership and form of government.''
    The Department supports a legislative solution to correct this 
longstanding issue for the Osage Tribe. This legislation will resolve a 
long history of uncertainty among Indian people who can trace their 
family history to the Osage Tribe, yet, due to the governing statute 
enacted in 1906 by the Congress, only tribal individuals with an 
ownership interest in the mineral estate can be officially recognized 
as members of the Osage Tribe with full membership rights.
    H.R. 2912, if enacted, will allow the recognized Osage tribal 
government to be the official representative of all Osage Indian 
people. The bill will allow all Osage tribal members to participate in 
tribal matters, including the selection of their leadership.
    The Department has met with Principal Chief Jim Roan Gray and other 
elected representatives of the Osage Tribe, who advised us of their 
intent to seek a legislative remedy regarding their membership. One 
concern the Department has is, the U.S. Court of Appeals, 10th Circuit, 
in 1997 found: ``[i]n summary, Congress terminated the power of the 
Osage Tribe to create a form of tribal government inconsistent with the 
prescription of the 1906 Act.'' (Fletcher v. United States, 116 F.3d 
1315, 1329). The judiciary recognized that the legislative branch had 
to make any correction in the form mandated by the 1906 Act.
    If H.R. 2912 is enacted, we will be happy to work with the Osage 
Tribe, at its request, to assist in conducting an election to implement 
the present subsection (b)(2) reaffirming the inherent sovereign right 
of the Osage Tribe to determine its own form of government. We also 
recommend that there should be an express provision in subsection (b) 
(1) that prohibits any form of government that diminishes the property 
interests of the headright holders.
    That concludes my statement. I will be happy to answer any 
questions that you may have.
                                 ______
                                 
    The Chairman. Can you--if you could, if you could give us 
an idea of why this has been in place for so long. It appears 
that since Mr. Lucas brought this legislation to the Committee, 
that there's very widespread support for moving forward with 
this legislation. Can you give me an idea of why this has been 
in place for so long without there being Congressional action 
on this.
    Ms. Hanna. Honestly, Congressman, I have no idea.
    The Chairman. Is there--as far as you know, is there any 
reason to maintain the current status that was outlined in the 
1906 Act.
    Ms. Hanna. In today's world, no, sir. I don't believe 
there's any reason to maintain the status.
    The Chairman. Are you aware of any widespread opposition to 
opening this up and giving the Tribe the right or returning to 
the Tribe the right to determine what its citizenship is.
    Ms. Hanna. No, sir. I'm not aware of any widespread 
opposition.
    The Chairman. Well, thank you very much.
    Mr. Kildee. Thank you.
    I'd ask you this question. Would this legislation, in your 
experience and in your background, grant any special rights 
that other tribes do not have.
    Ms. Hanna. No, sir. I don't believe so. I believe it would 
put them on an even platform with the other tribes.
    Mr. Kildee. They would be--they would have what the other 
five hundred plus tribes have.
    Ms. Hanna. Five hundred and sixty-one tribes that decide 
their own membership.
    Mr. Kildee. I keep track--I've helped several tribes get 
their sovereignty reaffirmed. So, I understand exactly what 
distinguished tribes that the BIA--fifty sixty-one now. So, 
they would have equal rights.
    Ms. Hanna. Yes, sir.
    Mr. Kildee. And equal rights is a very important concept 
both among sovereign Indian Nations and the United States and 
the State of Oklahoma, right.
    Ms. Hanna. Right.
    Mr. Kildee. Thank you very much.
    The Chairman.
    The Chairman. Mr. Cole.
    Mr. Cole. Thank you very much, Mr. Chairman.
    Just a couple of questions, because most of them have 
already been answered. But just to be very specific on this, 
are you aware of any other tribes that would have any objection 
to this legislation at all.
    Ms. Hanna. No, sir. I don't think any other tribe would 
have any objection recognizing the sovereignty.
    Mr. Cole. So, it's a situation quite unique to the Osage 
that would not intend to----
    Ms. Hanna. This is very unique to the Osage.
    Mr. Cole. Is there any other--do you happen to know, just 
out of curiosity, why this was written this way in the first 
place.
    Ms. Hanna. I believe in one of the opening comments that at 
the time of our history in the early 1900's, they thought the 
Tribe probably would be assimilated into the main stream 
society as they knew it then. And I think it's just a sign of 
the times back then.
    Mr. Cole. Do you think legislation, as it was written, was 
originally designed to speed that simulation, or just simply 
indifferent to the possibilities.
    Ms. Hanna. I think probably a lot of personal opinions on 
that could be argued. But I think it's just a pure sign of the 
times and the history of our nation.
    Mr. Cole. Well, I want to thank you for appearing here, and 
appreciate your support of the legislation and the Department's 
support of legislation. Thank you very much.
    Back to you, Mr. Chairman.
    The Chairman. Mr. Carson.
    Mr. Carson. Good to see you here, Ms. Hanna.
    A couple of questions for you. If the legislation passes, 
what will be the role of your office or the BIA in Washington 
in helping the Osage Tribe establish membership criteria, and 
will those require any approval from your office or from the 
Washington office.
    Ms. Hanna. I think the role of the Bureau of Indian Affairs 
and its Department will provide any of the technical assistance 
that they may request of the Bureau of Indian Affairs. I think 
the tribal legislation is intent to let the Tribe determine its 
own internal workings as it will request of the government, 
then we will step in.
    As far as clearances, it would depend on the content of the 
legislation itself. It would require one final sign off like we 
have in Tribal Constitutions. The Tribal Constitutions, if 
there's any change, there is a recommendation from my level, at 
the regional director's level, and then final approval by the 
assistant secretary.
    Mr. Carson. Now, you said it depends on the contents of 
legislation. You mean the underlying bill we're talking about 
today.
    Ms. Hanna. Right. If it changes--if the bill, as written, 
says, you know, that this--you know, we leave it up to the 
Osage Tribe. Then, we will just sort of work in a third person 
capacity, at their request, if they need any assistance.
    Mr. Carson. And, obviously, in your role as the Regional 
Director for kind of the heart of Indian country in this state 
and in the nation, you oversee as kind of the representative of 
the Federal Government, which has a fiduciary responsibility to 
tribes, a number of the Federal programs that individual Tribal 
members can avail themselves of. Do you have a sense, because 
of the kind of unusual history of Osage Nation membership, what 
benefits or entitlements from the Federal Government that Osage 
members, or, say, someone whose parents are both members of the 
Osage Nation but themselves do not have a headright, would not 
have that perhaps--let me rephrase that, because I didn't state 
that very artfully.
    You have a strange situation for Osage country that someone 
could have both parents who are full blood Osage, but they 
themselves do not have a voice in Tribal Government and would 
not necessarily be recognized as a member of the Tribe until 
which time as they inherited the headright from their parents. 
Is that not correct.
    Ms. Hanna. Uh-huh.
    Mr. Carson. And because of that, are there certain rights 
or benefits that across the Nation every other tribal member 
would have, access to Indian health service, for example, a 
wide variety of Federal benefits, that that person that I put 
forth said who's not given theirs and would not be eligible for 
despite the fact that he himself is a full blood Osage.
    Ms. Hanna. I could think of two immediate instances.
    One is--it's determined in the Indian preference, only that 
you need--you have to have a certificate of Indian blood. It's 
what we use for verification on that.
    Right now, there's a special proviso for the Osage to have 
a--to be recognized with Indian preference. That proviso would 
go away with this bill in that members of the Osage would be 
treated like any other member of a federally recognized tribe 
in claiming Indian preference. There would not be any 
exception.
    The other instance is for programs, our eligibility for 
first criteria of eligibility is Indian of a federally 
recognized tribe. So, it would just be--you know, you wouldn't 
have to prove a blood level or a headright for that.
    Mr. Carson. And how frequently--you said there's a proviso 
of the various laws of Indian preference to deal with the 
unusual situation of the Osage; is that correct.
    Ms. Hanna. Yes.
    Mr. Carson. How common are those kind of provisos 
throughout Indian law which would have some kind of special 
rule because of a set administrative circumstances to qualify 
as a formally recognized member of the Osage Nation.
    Ms. Hanna. When I first did a quick scan of our twenty-five 
seat of--our governments governing the Bureau's operations, the 
Osage alone was numbering, like what, eleven to fifteen 
specific provisos specific to the Osage.
    Mr. Carson. And all of those, you would estimate, would go 
away with this legislation were it to pass.
    Ms. Hanna. Or simplify them. They wouldn't all go away.
    Mr. Carson. Well, thank you for being here today.
    The Chairman. Mr. Lucas.
    Mr. Lucas. It's a pleasure, Mr. Chairman.
    Director, one simple question. We operate in a very 
challenging budget time line in the Nation's Capitol these 
days. With the implementation of this legislation, would you 
need any additional funds at your bureau to implement this 
language.
    Ms. Hanna. At this point, I--I hate to say no, but I would 
say very minimal. I see a minimal impact on the increase there.
    Mr. Lucas. Very minimal. I like that number.
    Thank you, Director.
    The Chairman. Well, thank you very much. If there are 
additional questions that the panel has, they will be submitted 
to you in writing. If you can answer those in writing to be 
included in the record. I think you pretty much answered 
everything that any member had. As we listen to the rest of the 
testimony, if there are other questions, we will submit those 
to you in writing. And if you can have those answered for us, 
we can include them in the record, and I would appreciate it.
    Ms. Hanna. Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    I'd like to call up our second panel consisting of 
Principal Chief Jim Gray and Councilman Mark Freeman. If you 
could join us at the witness table.
    Before you sit down, I'd like to have both of you raise 
their right hand.
    Do you solemnly swear or affirm under the penalty of 
perjury that the responses given and the statements made will 
be the whole truth and nothing but the truth?
    Chief Gray. I do.
    Mr. Freeman. I do.
    The Chairman. Thank you very much.
    Can you join us at the table.
    Let the record show they both answered in the affirmative.
    Well, thank you very much for being here. The Committee is 
honored to have you here to participate in this hearing and to 
give us your statements and questions.
    Chief, if you're ready, you can begin.

         STATEMENT OF CHIEF JIM GRAY, PRINCIPAL CHIEF, 
                          OSAGE TRIBE

    Chief Gray. Thank you, Chairman Pombo.
    On behalf of the Osage Nation, I would like to welcome you, 
Chairman Pombo, Congressman Lucas, Congressman Kildee, 
Congressman Cole, Congressman Carson to the Osage Reservation. 
I am pleased that the Resources Committee has come to hear 
Osage voices about this important legislation. We are honored 
by your presence.
    House Resolution 2912 would reaffirm the Osage Nation's 
inherent sovereign rights to establish its own form of 
government and membership criteria without diminishing the 
Osage mineral estate. I testify today in strong support of this 
legislation.
    Many years ago our Osage people lived on a reservation in 
Kansas. The leadership of the Tribe at that time sent a man 
named Wa-ti-an-ka to this area to look at this land, and 
advised the Tribe whether this was a suitable place for our 
children and elders. When he returned, he said the Osages 
should move to this place, our current reservation, because he 
believed that there was something in this land that would take 
care of the Osage people in the future. Our children would 
never starve, and our elders could live without fear.
    Many of us through the years believe Wa-ti-an-ka was 
referring to the oil that was discovered in the Osage years 
later. Income from oil has provided our people with a degree of 
comfort over the years. But in 2004, we understand that Wa-ti-
an-ka may have been talking about more than the oil. He may 
have been referring to that which will sustain the Osages into 
this century, the sovereignty of the Osage Tribe.
    The legislation this Committee is considering today would 
move the Osage Tribe forward in a historic way toward this 
sustenance. It would allow the Osage people to define who we 
are and who we will be.
    Today the question of who the Osage Indians are, at least 
as a legal matter, is murky and fraught with uncertainty. In 
1906, Congress said that only those who the Secretary of 
Interior determines are Osage will be Osage for purposes of 
receiving land allotments and a headright, the right to receive 
a pro rata distribution of income from the mineral estate. Yet 
the Federal Courts and the BIA have interpreted the Secretary's 
identification of Osages as Osage membership for all purposes. 
Even further, Osage membership for purposes of voting and 
eligibility for elected tribal office is limited to Osages with 
headrights. These interpretations effectively disenfranchise 
thousands of Osages. The Osage Tribe is concerned about the 
political rights of Osages who cannot participate in Osage 
government in any formal way. This is wrong. And despite the 
efforts of the Osage Tribal Council to remedy this problem 
through its own power on at least four occasions since 1980, 
today the problem continues. The good news is that the courts 
and the B.I.A. Have made clear that Congress holds the 
authority to clarify the powers of the Tribe, so we know where 
the remedy lies. We know that we are in the right forum today. 
And we know that the time has come for the Osage Tribe to take 
its rightful place.
    With regard to our form of government, Congress dictated to 
the Osage people in 1906 that we would have a Principal Chief, 
an Assistant Chief, and eight Council members. Today, we 
continue to follow this mandate, but there is one serious 
problem with this government form. It is not Osage. It is not 
of our making. It does not reflect Osage values. It is an 
imposition.
    We have adapted, over the years, to make this government 
work for the Osage as best we could. Where Congress has not 
expressly abrogated our powers, we have exercised our 
sovereignty and been able to do good things for our people. But 
today, we have an unjust government. It unfairly excludes 
Osages who do not happen to have a headright.
    With the ingenuity of our people, we will have a strong 
government that works for the people, not against them. This 
legislation would clarify that the form of government in 1906 
is not mandatory, and that Osage tribal government can adapt to 
changing times for the good of all its people.
    Today, the Osage people are looking to Congress to pass a 
new law, one that respects the true essence of any nation, the 
right to self determination. This is the policy of the United 
States toward Indian tribes having disclaimed the disastrous 
policies of allotment and assimilation that led to the problem 
we seek to solve today. We believe tribal self determination 
and Federal support of strong tribal government is exactly the 
right policy today, and it is the policy that guides this 
legislation.
    As Principal Chief of the Osage Nation, the Chief of a 
Council made up of and elected by only headright holders, I ask 
you to allow the Osage Tribe and its people the freedom to 
define our own citizenship, our own form of government, and our 
own future.
    Thank you for this opportunity. I'd be pleased to answer 
any questions that the Committee may have.
    [The prepared statement of Chief Gray follows:]

          Statement of Jim Gray, Principal Chief, Osage Tribe

    On behalf of the Osage Nation, I would like to welcome you, 
Chairman Pombo, Congressman Lucas, and the members of the House 
Resources Committee to the Osage Reservation. I am pleased that the 
Resources Committee has come to our home to hear Osage voices about 
this important legislation. We are honored by your presence.
    House Resolution 2912 would reaffirm the Osage Nation's inherent 
sovereign rights to establish its own form of government and membership 
criteria without diminishing the Osage mineral estate. I testify today 
in strong support of this legislation.
    Many years ago, our Osage people lived on a reservation in Kansas. 
The leadership of the Tribe at that time sent a man named Wa-ti-an-ka 
to this area to look at this land and advise the Tribe whether this was 
a suitable place for our children and elders. When he returned, he said 
the Osages should move to this place, our current Reservation, because 
he believed that there was something in this land that would take care 
of the Osage people in the future. Our children would never starve and 
our elders could live without fear.
    Many of us through the years believed Wa-ti-an-ka was referring to 
the oil that was discovered in the Osage years later. Income from oil 
has provided our people with a degree of comfort over the years. But in 
2004, we understand that Wa-ti-an-ka may have been talking about more 
than the oil; he may have been referring to that which will sustain the 
Osages into this century: the sovereignty of the Osage Tribe.
    The legislation this Committee is considering today would move the 
Osage Tribe forward in a historic way toward this sustenance. It would 
allow the Osage people to define who we are, and who we will be.
    Today, the question of who the Osage Indians are--at least as a 
legal matter--is murky and fraught with uncertainty. In 1906, Congress 
said that only those who the Secretary of the Interior determines are 
Osage will be Osage for purposes of receiving land allotments and a 
``headright,'' the right to receive a pro rata distribution of income 
from the Osage mineral estate. Yet, the federal courts and the BIA have 
interpreted the Secretary's identification of Osages as Osage 
membership for all purposes. Even further, Osage membership for 
purposes of voting and eligibility for elective tribal office is 
limited to Osages with headrights. These interpretations effectively 
disenfranchise thousands of Osages. The Osage Tribe is concerned about 
the political rights of Osages who cannot participate in Osage 
government in any formal way. This is wrong. And despite the efforts of 
the Osage Tribal Council to remedy this problem through its own power 
on at least four occasions since 1980, today the problem continues. The 
good news is that the courts and the BIA have made clear that Congress 
holds the authority to clarify the powers of the Tribe, so we know 
where our remedy lies. We know that we are in the right forum today. 
And we know that the time has come for the Osage Tribe to take its 
rightful place.
    With regard to our form of government, Congress dictated to the 
Osage people in 1906 the we would have a Principal Chief, an Assistant 
Principal Chief, and eight Council members. Today we continue to follow 
this mandate. But there is one serious problem with this government 
form: It is not Osage. It is not of our making. It does not reflect 
Osage values. It is an imposition.
    We have adapted over the years to make this government work for the 
Osage as best we could. Where Congress has not expressly abrogated our 
powers, we have exercised our sovereignty and been able to good things 
for our people. But today, we have an unjust government. It unfairly 
excludes Osages who do not happen to have a headright.
    With the ingenuity of our people, we will have a strong government 
that works for the people, not against them. This legislation would 
clarify that the form of government in the 1906 is not mandatory, and 
that Osage Tribal government can adapt to changing times for the good 
of all its people.
    Today, the Osage people are looking to Congress to pass a new law, 
one that respects the true essence of any nation, the right to self-
determination. This is the policy of the United States toward Indian 
tribes, having disclaimed the disastrous policies of allotment and 
assimilation that led to the problem we seek to solve today. We believe 
tribal self-determination and federal support of strong tribal 
government is exactly the right policy today. And it is the policy that 
guides this legislation.
    As Principal Chief of the Osage Nation, the Chief of a Council made 
up of, and elected by, only headright holders, I ask you to allow the 
Osage Tribe and its people the freedom to define our own citizenship, 
our own form of government, and our own future.
    Thank you for this opportunity. I would be pleased to answer any 
questions you may have.
                                 ______
                                 
    The Chairman. Thank you.
    Mr. Freeman.

            STATEMENT OF MARK FREEMAN, COUNCILMAN, 
                          OSAGE TRIBE

    Mr. Freeman. Gentlemen, I first want to thank you once more 
publicly for bringing this hearing here to us and for the hard 
labor that you've done coming this far with this bill.
    I would like to depart one moment and introduce my wife, 
Eleanor, if she'll stand back here. She'll probably be mad at 
me. I want to point out she's the grandmother of twenty-five 
Osage grandchildren who, under the present scheme of things, of 
course, are not acknowledged members of the Tribe, and also, 
twelve--at this late count, twelve great-grandchildren. So, if 
that points out possibly to you something. But thank you for 
allowing me to do this.
    Members of the House Resources Committee, I am Mark 
Freeman, Councilman of the Osage Tribe, elected only by 
shareholders in the Osage mineral estate. I am Chairman of the 
Membership Committee of the Council. I am also eighty-three 
years old, which qualifies me as an elder of the Tribe. I am 
humbled by the invitation to testify here today, and I do so in 
strong support of this legislation.
    I graduated from Ponca City High School in 1938, Northern 
Oklahoma Junior College in 1940, and I also attended Oklahoma 
University from '40 to '41. I enlisted as a U.S. Naval Cadet in 
1942, commissioned a 2nd Lieutenant in the U.S. Marine Corps 
Reserves, Navigator in 1943, and served overseas in the South 
Pacific Solomon Islands Campaign. In 1943, '44, I was Navigator 
Aid to General Moore, Executive Officer, Second Marine Air 
Wing, Bougainville. I resumed Pilot Training in 1944 and 
received Pilot Wings August 1945. I was released to inactive 
duty as a First Lieutenant, United States Marine Corp Reserves 
in February 1946.
    I started ranching in Osage and Noble Counties in '46. And 
in 1967, I established a ranch north of Pawhuska on the Osage 
Reservation. I continue to operate that ranch today.
    In 1967, I was elected as a member of the Federal Land Bank 
Board and served in that capacity until I retired in 1991. In 
that twenty-four year period, I served on various committees of 
the Twelfth Farm Credit District, Oklahoma, Kansas, Colorado, 
and New Mexico. During all of those years, I was an Osage by 
blood, but was not recognized by the Bureau of Indian Affairs 
or the Federal Government as a member of the Osage Tribe.
    My mother, who was an original allottee of the Tribe, died 
in 1992 at the age of ninety-one. I inherited her headright. 
That made me eligible, at the age of seventy-three, for the 
very first time to vote in the Osage Council election in 1994. 
I know of many others, because of strange historical twists in 
the wills and probates of Osage estates, and that's another 
long story for another day. We could go on with this. But who 
are Osage, but may never have the right to participate in Osage 
government. This is unfair and simply should not be.
    There are a fixed number of Osage headrights, twenty-two 
hundred and twenty-nine, the same number of individuals on the 
1908 roll established by the secretary. Now, non-Osages own 
approximately twenty-five percent of those headrights. 
Including in some of those are bankrupt oil companies, non-
Indians, other individuals, other governments. And being born 
to an Osage family does not mean an individual will ever become 
a headright owner. A headright is a federally protected 
property right, as it should be, that an Osage individual can 
bequeath to a favored son or daughter or to another Osage 
person. And unfortunately, tribal rights and Federal 
protections afforded only to Indians are tied to headright 
interests because of the outdated membership rules.
    I have lived many years, through years of service in the 
military and living and working here in Osage country. And I've 
come to understand the structural inequities of the Osage 
government that are beyond our people fixing ourselves. A 
problem created by Congress well before I was born, Federal law 
excludes most Osages from participating in the government 
closest to them, Osage tribal government. I'm not burdened with 
a law degree, but this defies common sense. What I am burdened 
with is my conscience and good teachings that direct me to act 
on behalf of my children and grandchildren who, despite their 
pride in being Osage, cannot participate in Osage government. I 
am here, as well as in my financial capacity, as their 
emissaries and the emissary of all other young Osage seeking 
justice for them and their grandchildren to be.
    Mr. Chairman, Congressman Lucas, all of the other good 
members of Congress who have come to this place to hear from 
the Osage about this legislation, this bill does not cost the 
Federal Government any money. We're not asking for land. We're 
not talking about gaming or some other area of concern. The 
Osages are asking for basic human and civil rights, rights that 
all other tribes have. I ask that you take what you have heard 
today back to Washington D.C., and pass this bill as 
expeditiously as possible. The Osage Nation's future depends 
upon your actions.
    Thank you for this opportunity. I would be pleased to 
answer any questions you may have.
    [The prepared statement of Mr. Freeman follows:]

           Statement of Mark Freeman, Councilman, Osage Tribe

    Members of the House Resources Committee, I am Mark Freeman, 
Councilman of the Osage Tribe, elected only by shareholders in the 
Osage mineral estate. I am Chairman of the Membership Committee of the 
Council. I am also 83 years old, which qualifies me as an elder of the 
Osage Tribe. I am humbled by the invitation to testify here today, and 
I do so in strong support of this legislation.
    I graduated from Ponca City High School in 1938, Northern Oklahoma 
Junior College in 1940, and I also attended Oklahoma University from 
1940-1941. I enlisted as a U.S. Naval Cadet in 1942, commissioned a 2nd 
Lt. USMCR, Navigator in 1943, and served overseas in the South Pacific 
Solomon Islands Campaign. In 1943-1944, I was a Navigator Aide to 
General Moore, Executive Officer, 2nd Marine Air Wing -Bougainville. I 
resumed Pilot Training in 1944 and received Pilot Wings August 1945. I 
was released to inactive duty as a 1st Lt., United States Marine Corp 
Reserve in February 1946.
    I started ranching in Osage and Noble Counties in 1946, and, in 
1967, I established a ranch north of Pawhuska, on the Osage 
Reservation. I continue to operate that ranch today. In 1967, I was 
elected a member of the Federal Land Bank Board and served in that 
capacity until I retired in 1991. In that 24-year period I served on 
various committees of the 12th Farm Credit District- Oklahoma, Kansas, 
Colorado, and New Mexico. During all those years, I was an Osage by 
blood, but not recognized by the Bureau of Indian Affairs or the 
Federal Government as a member of the Osage Tribe.
    My mother who was an original allottee of the Tribe died in 1992, 
at the age of 91. I inherited her headright. That made me eligible at 
the age of 73--for the very first time--to vote in the Osage Council 
election of 1994. I know of others because of strange, historical 
twists in the wills and probates of Osage estates (another long story 
for another day) who are Osage but may never have the right to 
participate in Osage government. This is unfair and simply should not 
be.
    There are a fixed number of Osage headrights, 2229, the same number 
of individuals on the 1908 roll established by the Secretary. Now non-
Osages own approximately 25% of those headrights, including some 
bankrupt oil companies and non-Indians. And being born to an Osage 
family does not mean an individual will ever become a headright owner. 
A headright is a federally protected property right (as it should be) 
that an Osage individual can bequeath to a favored son or daughter, or 
to another Osage person. And, unfortunately, Tribal rights and federal 
protections afforded only to Indians are tied to headright interests 
because of the outdated membership rules.
    I have lived many years, through years of service in the military 
and living and working here in Osage country, and I have come to 
understand the structural inequities of Osage government that are 
beyond our people fixing ourselves. A problem created by Congress well 
before I was born, federal law excludes most Osages from participating 
in the government closest to them, Osage Tribal government. I am not 
burdened with a law degree, but this defies common sense. What I am 
burdened with is my conscience and good teachings that direct me to act 
on behalf of my children and grandchildren who, despite their pride in 
being Osage, cannot participate in Osage government. I am here, as well 
as my official capacity, as their emissaries, seeking justice for them 
and their grandchildren to be.
    Mr. Chairman, Congressman Lucas, all of the other good members of 
Congress who have come to this place to hear from the Osage about this 
legislation, this bill does not cost the federal government any money, 
we're not asking for land, we're not talking about gaming or some other 
area of concern, the Osages are asking for basic human and civil 
rights--rights that all other tribes have. I ask that you take what you 
have heard today back to Washington, D.C., and pass this bill as 
expeditiously as possible. The Osage Nation's future depends upon your 
actions.
    Thank you for this opportunity. I would be pleased to answer any 
questions you may have.
                                 ______
                                 
    The Chairman. Thank you, Councilman.
    Chief, if I could, in your testimony, you talked about 
previous attempts to solve or resolve this situation. Can you 
expand on that a little bit for the Committee.
    Chief Gray. In the past twenty-five years, there has been 
several attempts to try to remedy this problem through CFR 
changes, as well as through the Federal Courts. And in the most 
recent case, in an appellate decision in 1998, known here as 
the Fletcher One, there was a determination that Federal Court 
was not the right avenue with which to resolve this problem and 
striking down the creation of the National Council for a lower 
Court decision. It basically, essentially said that Congress 
created this problem, and Congress needs to fix it.
    The Chairman. Were there previous legislative attempts.
    Chief Gray. No, sir.
    The Chairman. So, it was not until after that particular 
court decision that the decision was made that it had to be 
done with legislation.
    Chief Gray. That is the--that is the way the Council has 
come to this decision, that it was clearly based on our 
interpretation of Court decisions, as well as input from the 
community and the series of hearing the Tribe held a year and a 
half ago requiring this very issue. And it was quite clearly 
explained by both attorneys of the Osage Tribe, who volunteered 
their time to research this issue and provide input to the 
Tribal Council to formulate a better policy decision, and this 
was the result of that work.
    The Chairman. It's somewhat puzzling to me that the Osage 
would be the only ones that this happened to. You know, it 
seems like if you go back and research, that as we go through 
different periods, there's, you know, one block that will be 
treated one way, and then twenty years later or thirty years 
later there's something somebody else that comes along with a 
different idea, and you end up with something different. It's 
somewhat confusing that we ended up with just the Osage in 
this, from what I can gather, is a unique situation. And I know 
I'm sure that at the time it might have made sense, or they may 
have had some justification for why they did it. But us looking 
back on it almost a hundred years later, it doesn't make a lot 
of sense to us, to the Committee, that we ended up with this.
    Do you have any insight that has come out of the research 
that you've done of why the Osage were treated differently.
    Chief Gray. Well, I think you a--and I'm not trying to draw 
any chuckles from the audience here today. But you used the 
word unique. And it's a word that has been in our tribe for 
years. And it is both a blessing and a curse to be this unique 
sometimes. But I would say that there has been an enlightened 
view by not just how the Osages are treated, but also in terms 
of how Indian Tribes, in general, are treated, that the policy 
of self determination probably helps resolve this issue best in 
allowing the tribes to formulate internal government reforms 
that meet the needs of their community.
    So, I would say that the reason it may have lingered, may 
have largely to do with the internal governments of the Tribe 
to come to that conclusion itself, and then seek remedy. That 
brings us back here.
    So, my belief was that the policy of self determination is 
the policy of the Federal Government in its dealings with 
Native Tribes around the country. And this bill is consistent, 
as my testimony stated, is consistent with that philosophy that 
Osages are best suited to solve these problems internally. But 
it had to start with us first. We had to make that decision 
ourselves, and then come to you. And I think that's what was 
missing.
    The Chairman. To satisfying my curiosity, both you and the 
Councilman talked about the election being only of headright 
owners. If someone is a--owns half, inherits half of a 
headright, do they get half of a vote.
    Mr. Freeman. That's correct.
    The Chairman. That--really.
    Mr. Freeman. As it is today, if they got one sixty-fourth, 
they get one sixty-fourth of a vote.
    The Chairman. Boy, election nights must be a lot of fun.
    Mr. Freeman. But for those of us--I'll just add a little 
levity to this. And it was serious with me. As long as my 
mother lived, my wife had a little piece of headright. And I 
would take them to vote, and I couldn't go in there.
    The Chairman. So, you weren't----
    Mr. Freeman. I was not even allowed in where they voted.
    The Chairman. Huh.
    Mr. Freeman. Now, the first time that came to me was when I 
was 8 or 9 years old. One of my cousins lost some of their 
people, and they inherited these headrights. They laughed at 
me. Said, ``I'm Osage. You're not. I'm Osage.'' A lot of our 
people have heard this.
    Well, that bothered me until I was--well, it always did 
bother me, but it didn't keep bothering me as bad as it did 
that first time that fellow said that. But then when I was 
fourteen, fifteen years old, I realized the reason I did not 
have a headright nor a vote was because I had my momma.
    The Chairman. So, the way the laws are established now for 
the way the system operates, you could have someone that's 2 
years old that has a vote, and somebody that's seventy-three 
that doesn't.
    Mr. Freeman. Well, that 2 year old cannot vote until 
they're eighteen.
    The Chairman. Who votes their share?
    Mr. Freeman. It's lost.
    The Chairman. Really.
    Mr. Freeman. That vote is lost. We have--for the second 
time, I'll bring an end to this, but I will give you a record 
of how many votes actually took place in the last election and 
the previous election, how many shares were. And I think you 
may have that someplace in your record. I don't know.
    The Chairman. I know my time has expired, but just the 
indulgence of the Committee briefly.
    Can you give us an idea of how many people actually voted? 
I know that the total vote is a limited number. But how many 
people actually had a piece of a vote or, you know, were able 
to vote? How many total votes were cast.
    Mr. Freeman. There were approximately a little over three 
thousand votes that were cast. There are a little over four 
thousand individuals who own headrights or pieces thereof.
    The Chairman. And how many--how many people if--and I'm not 
sure if you've set up an exact definition yet. But you can tell 
me how many people claim the Osage blood? How many people 
really should have the opportunity to participate?
    Mr. Freeman. Well, there are almost sixteen thousand CDIB 
cards.
    The Chairman. Sixteen thousand.
    Mr. Freeman. CDIB cards. CDIB cards.
    But that's not a membership of the Tribe. We found that 
out. That's a weakness with our young people when they go to 
school, when they go get a job. Not on a level playing field 
with all other tribes. They need a membership card.
    Chief Gray. It's just a degree of Indian blood to a 
particular tribe, and it's a Bureau of Indian Affairs issued 
document to people who have one.
    Unfortunately, as I mentioned before, this policy of self 
determination, a lot of changes have taken place over the years 
where they don't recognize the CDIB card as something that 
would entitle you to any of the benefits that come with 
actually being a member of the Tribe or a citizen of the Tribe 
that would issue a tribal identification card that's issued by 
the Tribe, not the Federal Government. So, a lot of things that 
you will hear today from other testimony will kind of 
personalize the impact that this policy has had on our people.
    The Chairman. Thank you.
    Mr. Kildee.
    Mr. Kildee. Thank you very much, Mr. Chairman.
    You asked why this happened in 1906. It was a difficult 
period for Indians throughout the country, including Michigan. 
My dad was born in 1883. That's why I've learned about the 
injustice to the Indians. He always told me that the Indians 
were treated unjustly in Michigan.
    When my dad was seventeen years old he lived at Burt Lake, 
Michigan, the Burt Lake Tribe, which were trying to get their 
sovereignty recognized, obtain sovereignty. They put them on 
the tax rolls for 1 years. And 1 day later came in, because 
they had not paid their taxes, pushed them off the land, and 
burned their village down. This is in my dad's time now. This 
is in Michigan. So, it was a very difficult time for Indians. 
They would disburse from the European point of view, and be 
assimilated or whatever occasion, but it was a very difficult 
time.
    Let me ask you this. I think the question has been answered 
during your testimony. But just looking at a specific point in 
the record, does every person of Osage blood who has a parent 
with a headright receive one after the parent's death.
    Mr. Freeman. No.
    Chief Gray. No. It depends on how many siblings they have 
that are of Osage descent.
    Mr. Freeman. It's even worse than that. A parent, an Osage 
parent could have twelve children, and might just leave that 
headright or the primary part of it to one favored son or one 
favored daughter. This doesn't always happen, but it can 
happen.
    Mr. Kildee. Let me ask you. Does your grandson, Aaron, does 
he have a headright now?
    Mr. Freeman. No. He does not.
    Mr. Kildee. He's twenty-one years old, and cannot 
participate.
    Mr. Freeman. I will--will you let me go further with that.
    Mr. Kildee. Sure.
    Mr. Freeman. I have six children and three stepdaughters. 
Three stepdaughters have a half headright. From those six 
children, three stepdaughters have twenty-five grandchildren. 
None of them have it. Then they, in turn, have twelve other 
great grandchildren who hopefully are going to go on and be 
healthy, and none of them have it. But there are other 
families. There are--twenty-five percent of these headrights 
are in non-Osage hands, whether it be by murder, but illness, 
by going to a non-Osage spouse. This has happened in the past.
    There are a multitude of young Osage people by blood who 
will never, in their lifetime, nor will their children in the 
present scope of things, nor will their children or their 
children's children have an Osage headright.
    Mr. Kildee. And Mr. Lucas' bill will remedy this.
    Mr. Freeman. This is the purpose. This is the whole 
purpose. It has nothing to do, though, with property.
    Mr. Kildee. I think you've made your point very clear. And 
I certainly--I think, you know, in the archives of your Nation, 
there are many historical happening that hopefully some day in 
the archives that they will have on this date took place that a 
bipartisan Committee came out here. This is not a Democrat or 
Republican issue. A bipartisan Committee came out here. And I 
thank Mr. Pombo for doing this, to try to bring a remedy for 
this injustice. Wherever there is an injustice, we have to seek 
a remedy. And I think your testimony has been very, very 
helpful. I thank you.
    The Chairman. Mr. Cole.
    Mr. Cole. Thank you very much, Mr. Chairman.
    Councilman Freeman, did you ever think your wife might like 
it that you couldn't vote, and she could? Mine would love that.
    Mr. Freeman. I'm going to tell you something. My wife and 
mother both liked it.
    Mr. Cole. You know, this is an extraordinary anomaly in the 
law. My family owns the last part of our allotment land as 
Chickasaws. And if we had to define our citizenship within our 
Nation on the basis of property as opposed to being able, in 
our case as you propose, to trace it back, we would lose 
thousands of people whose heritage is important to them who are 
contributing and active members. And it's amazing to find 
ourselves in this situation.
    I want to compliment you, Chief Gray, on a couple of 
things. Number one, I will tell you it's an unusual politician 
who is willing to change his electorate. If you've been winning 
with one group--you know, and this is quite an extraordinary 
thing. You are expanding the number of people that can 
participate in the political life of the Osage Nation. And that 
always holds, quite frankly. You know, we all agonize over 
redistricting out here. Any time you change who votes for you, 
that's a big deal. And that speaks very well of you, frankly, 
being willing to put the good of your people above your--what 
might be conceivably your own political self interest. So, I 
compliment you on that quite profoundly.
    And I think, frankly--and as I'm sure the people here know, 
I appreciate the fact that you have come to Washington, as well 
as--we're here because you went there in large measure. And I 
had the opportunity when you and Winston, I think, were up 
there to--we went to visit Whit's office.
    As people up here know, Whip Blunt, Whip Blunt from 
Missouri, as you walk down that hall--if you ever come to 
Washington, come by, and one of us will get you up there. 
Because the lines--first photographs as you come in toward the 
office of Osage people, Osage and Indian territory in the 
1870's and 80's and 90's. And then when you walk into the 
Whip's office, which is quite grand, one of the great offices 
in the Capitol building, there's on original Catlin paintings 
of Osage all down the wall. And Whip likes to joke. There's 
also quite a collection from the Smithsonian of Osage war clubs 
and paraphernalia. He always threatens to break those out on 
us. And believe me, they look like they could do the job.
    Of course, as I tell Whip Blunt, he's not nearly as fierce 
as the people who wield those things. I'm not too worried about 
him. But this is a quite extraordinary journey that you've 
undertaken for your people and a very, very good thing.
    I do want to ask you. There are--obviously, you have--are 
the Osage a participating tribe in the fuel tax arrangements 
that we have at the state level in Oklahoma.
    Chief Gray. Yes. It was an Act of Congress that--called 
Gross Production Tax that provides a percentage of our oil 
revenues to the state of which revenue was returned back into 
the form of money for education and roads. And it's also--it is 
distributed in the general funds in the state and--which we 
might want to talk about some day, how that's calculated. If 
you drove up here, you know.
    Mr. Cole. Now, I actually meant, as you recall, we 
negotiated--the State of Oklahoma negotiated with various 
tribes an actual sharing of fuel tax revenue during the course 
of the 1990's in exchange for which the tribes, various tribes, 
participated and charged state fuel tax at facilities that they 
operated. And they got back a relatively small percentage. I 
think it escalates up to about 5 percent of the total state 
fuel tax in exchange. And they agreed to spend it on building 
roads or health care for the people, education. And it was a 
very good arrangement back and forth. And as I recall, part of 
the compensation the tribes participated in had to do with 
literally the size of the Tribe.
    Chief Gray. Right.
    Mr. Cole. So, you don't happen to know how you're defined 
under that agreement.
    Chief Gray. We never signed that contract. We don't have, 
you know, a business that would need to have one. However, if 
we do decide to do that, then that compact process would be 
there for us to utilize.
    Mr. Cole. And this actually would, frankly, allow you to 
participate a little bit more fully in that revenue sharing due 
to the size of the Osage Nation, the official size. It's not 
like the size is changing. I mean there's a little more to 
that. The official size of the Nation would finally reflect its 
real size culturally in terms of its collective identity.
    Chief Gray. That's correct.
    Mr. Cole. Well, thank you very much. Again, I just want to 
tell you both how much I appreciate the fact that you've taken 
up a hundred year old battle, and pushed it so far toward what 
we hope will be a successful conclusion. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Mr. Carson.
    Mr. Carson. Thank you all for being here. Let me associate 
myself with what Congressman Cole said, as well. And it's nice 
to see your wife here, as well, Councilman Freeman.
    A couple of just technical questions for you. As the owner 
of a headright, do you have the right to bequeath that to 
anyone as you see fit, or is it constructed simply members of 
the Osage Nation, your lineal descendants or are there any 
restrictions at all, and where are those restriction to be 
found.
    Mr. Freeman. Well, if you're Osage and you own a headright, 
you cannot sell it. You can't give it away during your life. 
And then this is what you speak of. At death, it can be 
bequeathed to one child out of three or four. Or, as I 
understand it, that if you get mad enough at all your kids, you 
can bequeath it to a niece or a nephew or someone else. Do you 
understand it that way.
    Chief Gray. Uh-huh.
    Mr. Carson. Does is have to be a blood relative like that?
    Mr. Freeman. I beg your pardon.
    Well, no, to any Osage. But it cannot be bequeathed to a 
non-Osage.
    Mr. Carson. By Osage, you mean someone with a CDIB card? 
Because to be defined as an Osage majority, you have a 
headright. So, you know, who is the eligible pool to receive 
this.
    Mr. Freeman. Well, now there you make a very good point 
that you need to take back to Washington. How do you determine 
who is an Osage.
    It's by blood, of course. And we do it by our families. So, 
here we're going under this conjecture that we can only leave 
it to Osages. And yet, we haven't determined yet for sure 
legally who an Osage is. So, that's a point you raise that I 
cannot answer until we do this.
    Mr. Carson. And are there any restrictions on the 
fractionalization of an interest? You said you had six 
children. Could you give one sixth of your headright to each of 
those.
    Mr. Freeman. Yes, sir.
    Mr. Carson. And there's no restriction on that.
    Mr. Freeman. No.
    Mr. Carson. So how--you mentioned in your testimony, 
Councilman, that twenty-five percent of the headrights are now 
owned by non-Osage Indians.
    Mr. Freeman. Yes.
    Mr. Carson. Some fraction of those by, what you called, 
bankrupt oil companies.
    Mr. Freeman. Various and sundry--and some oil companies 
that are not bankrupt and by individuals.
    Mr. Carson. So, how did they get those.
    Mr. Freeman. By church groups.
    Mr. Carson. I guess what I'm confused by this.
    How did those twenty-five percent of the headrights end up 
in the hands of a non-individual Osage person?
    Mr. Freeman. By virtue of the way the BIA was taking care 
of our business when they had complete control of the 
guardianships that were appointed by the legal policies that 
were held forth by the State Government, by the Federal 
Government. That's the way they got out of their hands.
    And you have read about the murder trials in Osage County, 
whereas one family composed of quite a few people, were 
murdered. That's just one they wrote about. This happened in a 
smaller way with families who were killed. This happened with 
mothers which labor was induced into them to have a child back 
there before allotments could get there in time for allotments, 
all of these things. I'd go through a litany, but I need to 
stop.
    Mr. Carson. Are there people who are non-Indian individuals 
who have a headright?
    Chief Gray. Yes, sir.
    Mr. Carson. And say they want to show up on election day.
    Chief Gray. Only Osages with headrights are allowed to vote 
that are over the age of eighteen.
    Mr. Carson. I'm in this like infinite group of--I mean I'm 
going to have to regress on this.
    To be on Osage is to have a headright. But you can't vote 
if you don't--you're both an Osage and headright, which is to 
have some distinction. Are you saying you have to show your 
CDIB card and have a headright, or what is the procedure with 
that.
    Chief Gray. You are making our case for us, Congressman.
    But I think what I--the best way I can try to answer this 
is we have several amendments to the 1906 Act, and one of them 
was in 1978 that basically verified that Osage headrights, if 
they do not have an heir that's Osage. It needs to go to--have 
a structured way in which the headright can remain within the 
Tribe or within an Osage family.
    Recently, two and a half headrights that were in non-Osage 
hands were put up for an auction, and only Osages were allowed 
to bid on them if you were a member. And they were made 
available through public auction. And if nobody was to bid on 
them within Tribal Council, then they were available, and the 
body of the Tribe could bid on them as an attempt to try to 
maintain the headrights within the Tribe with the individual 
Tribal members.
    Mr. Carson. My time is up, but I have a couple more 
questions, if Mr. Chairman would indulge me.
    Does the Tribe litigate these issues?
    Obviously, the headright is a valuable property. And as a 
non-Indian headright owner, I have ever interest in seeing that 
handed down to my children where they can enjoy the monetary 
value of that. I mean is the Tribe litigating these issues 
against the people who are trying to pass it on to generations 
outside the Osage Nation.
    Chief Gray. Essentially, once it's out of Osage hands, it's 
very, very difficult for the Tribe to exercise the legal 
jurisdictions of that. It's a very complicated issue. And yes, 
it is going to be--have to be a matter of litigation for 
anything to be resolved in those areas where the headright has 
been removed from the Tribe, the individual tribal members.
    In the case that I mentioned earlier, this was a case where 
the individual estate put this in the will, how it was going to 
be distributed back. It was a very rare occasion. It's never 
happened before. But it was certainly encouraging to see that 
happen. And the Tribe was definitely fortunate that all of the 
auctions went to Osage, as it was set up to do, and we were 
prepared to jump in.
    Mr. Carson. One last question. If this legislation passes, 
the Osage Nation will have the right to define its own 
membership. Obviously, Congressman Cole and I have talked a lot 
about that with our own respective tribes, where their lineal 
descendant in the census in the twentieth century is quite an 
integral number. But that's an unusual approach across Indian 
country where, as you know, sometimes are patholineal, certain 
blood requirements.
    Is there--what in Osage history or culture will drive the 
determination of the Osage Nation who becomes a member or who 
anticipated it would be--all lineal descendants would be people 
prior to the 1906 Census, so it was part of the Act that we're 
dealing with today.
    Mr. Freeman. I'd like to answer that because it needs 
clarification. And we have passed a resolution by virtue of the 
waiving of our sovereignty by the BIA. This can be taken back 
tomorrow. And we passed a resolution for membership. That 
resolution says that all the descendants of the twenty-two 
hundred and twenty-nine living La-ti are members of the Osage 
Tribe.
    My hope is that that's the way it will remain. We don't 
want to get back into a fighting contest over this and that and 
the other. That's what needs to be done. What will be done, I 
hope.
    Mr. Carson. And how many people do you think that is?
    Mr. Freeman. Today?
    Well, it's conjecture, because a lot of them have gone away 
three and four generations and haven't come back. But they will 
come back, some of them. Which there may be--we know there's 
sixteen thousand, more or less, CDIB cards issued to Osage 
Indians. There are others that have been born since then, and 
some who have died. But I would venture to say someplace in the 
area of twenty thousand people will be affected by this.
    Mr. Carson. Thank you, Mr. Chairman, for letting me extend 
my time.
    The Chairman. Mr. Lucas.
    Mr. Lucas. Thank you, Mr. Chairman. Chief and Councilman, 
could we for a moment discuss just a little bit of the early 
history of the Osages? Chairman Pombo asked questions about how 
we ever got this law in the first place.
    You stated in your testimony the Osages were in Kansas.
    You sold your property, came to Oklahoma of your own free 
will, and bought basically Osage County now. And at the time, 
Oklahoma then was opened up by the Federal Government for more 
settlement.
    You know, it's kind of ironic, Chairman Pombo, that the 
Osages actually came here of their own free will. Most tribes 
did not always have that option when they came to Oklahoma.
    Mr. Freeman. Well, I'm going to have to----
    Mr. Lucas. Which is kind of unique.
    Mr. Freeman. Well, I'm going to have to take exception to 
that. It wasn't of our own free will. I'm sorry. And it 
started--to give you a long story short, the year my 
grandfather was born in 1872, that's the year they moved down 
here from Kansas. But previously, they lived in Carter County, 
and they made--Lewis came back and made the first treaty in 
1808 and took part of Missouri and part of Arkansas. And then 
Clark came back in 1818, and they took some more. And then 
eventually when the five civilized tribes were moved out here, 
they took Oklahoma. And we own plumb down to the Red River, the 
Arkansas and places. That was all taken.
    The last analysis, we were forced down here. We had the 
treaty, the treaty of 1868, but it didn't hold water. They came 
on in to another deal. They finally dealt with the Cherokees. 
They took our land. They paid us so much for it. They took 
money out of that and paid for this.
    So, in essence, in 1906, we owned this as a Tribe in fee 
simple, like an individual does rather than like a treaty.
    Mr. Lucas. Exactly.
    Mr. Freeman. And the Government found themselves--they had 
their pick. All other tribes were able to come in there and 
say, ``We're going to allow you to give forty acres or a 
hundred and sixty acres, seventy acres per Tribal member,'' and 
declare the rest over. Well, they kind of had their pick on it. 
We had some good, old people who were smarter than we give them 
credit for then.
    Mr. Lucas. Very true.
    Mr. Freeman. Doing the best they could under the worst of 
circumstances. And they held on. They did give six hundred and 
forty acres, plus another forty-six to each Tribal member, 
twenty-two hundred and twenty-nine, and kept that valuable 
mineral asset that I have no idea how they'd know how valuable 
it was. By that's where we got where we were.
    And I want to say this one thing. He also went back to 
those people, Chief, at that time when he come down here, and 
he said, ``Let's go down there. Those white men can't put that 
iron thing in the ground.''
    He'd been up where my ranch is where the white rocks are.
    And it was the farmers that were coming in. We Osages like 
that bottom land. It's more productive, you know, just like 
other people do. And when they came in, the farmers would come 
in.
    Which I recall see the medicine man, who said he could turn 
himself into a coyote and many different things. So, he made a 
pretty good trail down here, and he made a good talk.
    Mr. Lucas. Council, quickly, how many acres in the mineral 
estate do you have?
    Chief Gray. About a million and a half, sir.
    Mr. Lucas. A much better job negotiating, yes.
    And also, Chairman, when was the first oil well drilled in 
the Osage Nation? It was before statehood.
    Mr. Freeman. It was before statehood, yes, up by the 
Cherokee country up the road by Bartlesville. Foster number--
no. That wasn't the first.
    Mr. Lucas. And most certainly the fact that there was such 
tremendous production in the early days in your part of 
Oklahoma got you more attention, good or bad, from the Federal 
Government than anyone else. And literally, Chairman, prior to 
the first World War, we produced more crude oil in Oklahoma 
than Texas or any other state. Tremendous, tremendous resources 
at the time. Of course, oil wells, like everything else, 
eventually play out. But it was a huge amount of resource that 
were on the line that led to a lot of horrendous things for the 
Osage people that went on in this country at that time.
    Chief Gray. Congressman, I would add that the wealth of the 
Tribe, albeit it has its negative impacts on the culture of the 
Tribe, the positive impact was that the resources allowed the 
Tribe to maybe support its culture and maintain its integrity 
during some very, very hard times that followed. So, it is what 
it is.
    Mr. Lucas. Very true. Very true.
    Mr. Freeman. If I may, on the production and the mineral 
trust and the headrights. This Council has attempted to find a 
way that we can some way buy back, if we can get the names of 
people who own these headrights. And after death or some other 
way, we can continue to buy back those. That also is a part of 
our culture. It's one of those things.
    So, we have these dreams, like you all do have dreams.
    We want to work on that.
    Mr. Lucas. Thank you, Chief and Councilman, for being such 
good people to work with.
    Back to you, Mr. Chairman.
    The Chairman. Before I excuse this panel, I just wanted to 
ask a follow-up to what Mr. Lucas was talking about.
    When did they actually discover that there was oil under 
Osage land?
    Chief Gray. I'd say at least twenty-five years after we 
were settled here. It was right before--it wasn't before 
statehood. And it was late in the 1890's. I'm not sure exactly 
what the date we discovered the oil was, but it was well after 
we were established here.
    The Chairman. So, when the 1906 law went into effect, they 
knew that there was a valuable resource there.
    Chief Gray. Correct.
    The Chairman. So, that quite probably led to what some of 
the thinking and motivation was behind that original----
    Chief Gray. I would say that, plus the unique way in which 
the Osages arrived here allowed us the abilities to maintain 
the subsequent tribes.
    The Chairman. Well, thank you very much for your testimony. 
This has been very interesting and very valuable, and I 
appreciate both of you gentleman being here. And again, I will 
tell you if there are any further questions of members of the 
community now, they will be submitted to you in writing. And if 
you would answer those in writing for the Committee, I would 
appreciate it. Thank you.
    Mr. Freeman. If I could add one thing to the last question, 
Chief, the knowledge about the oil.
    As you all said before, at the time that the 1906 Act was 
set up for a twenty-five year life, those people who were 
leasing Osage land already and later would buy Osage land sure 
thought they were going to get the minerals, as well, in 1932. 
But it was extended and extended. And our own people, who 
didn't talk anguish too much, were talking about--what's that 
word they always said?
    Chief Gray. Perpetuity.
    Mr. Freeman. Perpetuity. I think you all know perpetuity. 
We finally got it in '84 or '78.
    Chief Gray. Eighty-four.
    Mr. Freeman. So, we did get perpetuity then. We finally did 
get perpetuity. So, they knew what they were doing just--we 
just could not do, under the rules we were working, what we 
would like to do. Now, we would like recognized that and 
appreciate the help.
    Thank you for letting me add that.
    The Chairman. Thank you very much.
    I'd like to call up our third panel. We'll hear from Mr. 
R.E. Yarbrough, President of the Osage Shareholders 
Association, and two young ladies with a special interest, 
Jessica Rosemary Moore and Cherise Lookout.
    If you want to scoot down one seat this way, it might be 
easier for the microphone.
    If you would stand and raise your right hand.
    Do you solemnly swear or affirm under the penalty of 
perjury that the responses given and the statements made will 
be the whole truth and nothing but the truth?
    Thank you. Let the record show they all answered in the 
affirmative.
    We'll welcome our panel, our third panel here today.
    Mr. Yarbrough, we're going to begin with you.

          STATEMENT OF ROBERT E. YARBROUGH, CHAIRMAN, 
                 OSAGE SHAREHOLDERS ASSOCIATION

    Mr. Yarbrough. Chairman Pombo and members of the Committee, 
I want to thank you for the opportunity to testify before you 
today. My name is Robert E. Yarbrough. I'm the Chairman of the 
Osage Shareholders Association.
    The Osage Shareholders Association is a grass roots 
organization made up of Osage individuals who are voting 
participants in our present form of government. We have vested 
interest in the Osage mineral estate trust. Our present form of 
government is unfair and inequitable in that the great majority 
of Osage people are disenfranchised by their inability to vote 
or participate in government at this present time. Therefore, 
we are forced to participate in a government that is not 
representative and has become undemocratic. There was only one 
point in time at the initial implementation of the 1906 
Allotment Act when there was full voting participation by Osage 
people. Only Osage shareholders are allowed to vote and 
participate in the present form of government.
    Since 1906 up to the present, our Osage governance has 
evolved into a democratic travesty. Many efforts have been made 
to rectify or alleviate this situation including lawsuits. It 
is with great sorrow our people continue to perpetuate this 
parody of representative government. The Osage people are not 
able to define their owner membership, nor are they able to 
establish their own form of government.
    Never again should a mother's or father's last will and 
testament need to be read in order to determine which children, 
if any, are granted headright interest and the right to vote. 
Only in the wildest imagination can one conceive the type of 
system that evolved from this Act.
    In the case of Fletcher versus the United States, the 
plaintiffs were seeking a fair and equitable form of government 
before the Tenth Circuit Court of Appeals. The plaintiffs were 
admonished to take this issue to Congress. We would like to 
thank Congressman Lucas for bringing this issue to Committee. 
Over the last hundred years, the Osage people have been 
governed by a code of Federal regulations.
    Sovereignty may be just a word that is intangible. Yet, it 
is a right granted by God that flows from the people and is 
exercised by every other tribe in this country. Our people 
deserve this right and the freedom to express themselves 
without the interference of bureaucratic agencies.
    Since the 1906 Act, there have been eleven amendments that 
have only addressed issues concerned with the mineral estate 
trust and its shareholders. None of the eleven amendments dealt 
with the sovereignty issue we are addressing today. The 
problems that face the Osage people today can only be remedied 
by a Congressional Act reaffirming our tribal sovereignty. Our 
tribe stands united in our efforts to effect this change, and 
we support this bill.
    Thank you for your time.
    [The prepared statement of Mr. Yarbrough follows:

              Statement of Robert E. Yarbrough, Chairman, 
              Osage Shareholders Association, on H.R. 2912

    The Osage Shareholders Association is a grass roots organization 
made up of Osage individuals who are voting participants in our present 
form of government. We have vested interest in the Osage Mineral Estate 
Trust. Our present form of government is unfair and inequitable in that 
the great majority of Osage people are disenfranchised by their 
inability to vote or participate in a Government that is not 
representative and has become undemocratic. There was only one point in 
time, at the initial implementation of the 1906 Allotment Act, when 
there was full voting participation by the Osage people. Only Osage 
shareholders are allowed to vote and participate in the present form of 
government.
    Since 1906 up to the present, our Osage governance has evolved into 
a democratic travesty. Many efforts have been made to rectify or 
alleviate this situation, including lawsuits. It is with great sorrow 
our people continue to perpetuate this parody of representative 
government. The Osage people are not able to define their own 
membership, nor are they able to establish their own form of 
government.
    Never again should a mother's or father's last will and testament 
need to be read in order to determine which children, if any, are 
granted headright interest and the right to vote. Only in the wildest 
imagination can one conceive the type of system that evolves from the 
Act.
    In the case of Fletcher v. United States the plaintiffs were 
seeking a fair and equitable form of government before the 10th Circuit 
Court of Appeals; the plaintiffs were admonished to take this issue to 
Congress. We would like to thank Congressman Lucas for bringing this 
issue to Committee. Over the last hundred years the Osage people have 
been governed by a code of federal regulations.
    Sovereignty may be just a word that is intangible. Yet, it is a 
right granted by God that flows from the people and is exercised by 
every other tribe in this country. Our people deserve this right and 
the freedom to express themselves. Without the interference of 
bureaucratic agencies.
    Since the 1906 Act there have been eleven (11) amendments that have 
only addressed these issues concerned with the Mineral Estate Trust and 
its shareholders. None of the eleven (11) amendments dealt with the 
sovereignty issue we are addressing today. The problems that face the 
Osage people today can only be remedied by a Congressional Act 
reaffirming our tribal sovereignty. Our tribe stands untied in our 
efforts to affect this change and we support this bill.
                                 ______
                                 
    The Chairman. Thank you, sir.
    Ms. Moore.

             STATEMENT OF JESSICA ROSEMARY MOORE, 
                       FAIRFAX, OKLAHOMA

    Ms. Moore. Members of the House Committee on Resources, I 
am deeply honored to have been asked to testify before this 
Committee in support of H.R. 2824, legislation that would 
affirm the inherit sovereign rights of the Osage Tribe to 
determine its own membership and form of government. This 
legislation would allow the Osage Tribe to establish Tribal 
membership laws that would allow Osages like me, those who do 
not have Osage mineral estate headrights, to become members of 
the Osage Tribe.
    I would like to tell you more about myself and my family of 
whom I am very proud. I am Osage from both sides of my family. 
My mother, Terry Mason Moore, is descended from her 
grandparents full blood original allottees, Joseph C. And Rose 
Mason. Joseph C. Mason was a member of the Osage Tribal Council 
in the 1950's. My mother is a current member of the Osage 
Tribal Council. My father--her father, Joe Mason, a full blood 
Osage, is featured as a model of an Osage Chief in the murals 
contained in the rotunda of the Oklahoma State Capitol. My 
father, Theodore Moore, Jr., who is descended from his great 
grandparents full blood original allottees, Amos and Eliza 
Osage.
    My family resides in Fairfax on the Osage Reservation, and 
we belong to the Grayhorse District. I have participated in the 
annual Osage In-Lon-Ska dances in Grayhorse since I was able to 
walk. My father is a tail dancer, and my brother, Dillon, is a 
water boy for the Grayhorse District. I previously served as 
the 1998 Osage Tribal Princess. During the past three summers, 
I have worked at the Whitehair Memorial, located on the Osage 
Reservation, and a part of the Oklahoma Historical Society 
helping to catalogue Osage documents and videotapes. My ties 
with the Osage Tribe are very strong.
    I am three-fourths degree Native American, including three-
eighths Osage, but I'm not eligible for enrollment in any tribe 
but Osage. Because I am not enrolled in any other tribe, I 
cannot apply for any Native American scholarships that require 
proof of enrollment in a federally recognized tribe. As a 
college student, and a Native American of high degree of Indian 
blood, I should be able to access those scholarships.
    For example, I am a freshman at Oklahoma State University 
in Stillwater, Oklahoma. If I were to have attended the 
University of Oklahoma, I would not have been considered a 
Native American student under their rules. In the OU 
Application, it is required for a Native American applicant to 
submit a copy of their tribal enrollment card to qualify for 
American Indian scholarships. While I have a certified degree 
of Indian blood, CDIB card, from the Bureau of Indian Affairs, 
a CDIB does not mean a person is a Tribal member. So, if I had 
applied to OU, I would not be recognized as a Native American 
because of the requirements. This is wrong, and it is up to 
Congress to fix this situation.
    Of even greater personal concern to me is that my non-
tribal member status could actually interfere with my ability 
to practice my spiritual beliefs and fully participate in 
tribal ceremonies that I and my family hold as necessary.
    I am a member of the Native American Church. And the 
Federal Government has enacted protection for the rights of 
Native American Church members to practice their beliefs. This 
protection only extends, however, to members of federally 
recognized tribes. It is absurd that I would not receive the 
same protection as a person who is one thirty-second Indian who 
is a member of a federally recognized tribe.
    Furthermore, I am a traditional dancer that requires the 
use of eagle feathers for participation. Because I cannot prove 
enrollment in a federally recognized tribe, I cannot apply for 
eagle feathers or a permit from the U.S. Fish and Wildlife 
Department.
    Members of the Committee, I humbly ask for your support in 
this important legislation.
    [The prepared statement of Ms. Moore follows:]

              Statement of Jessica Moore, Osage Descendant

    Members of the House Committee on Resources, I am deeply honored to 
have been asked to testify before this Committee in support of H.R. 
2824, legislation that would reaffirm the inherent sovereign rights of 
the Osage Tribe to determine its own membership and form of government. 
This legislation would allow the Osage Tribe to establish tribal 
membership laws that would allow Osages like me, those who do not have 
Osage mineral estate headrights, to become members of the Osage Tribe.
    I would like to tell you more about myself and my family, of whom I 
am very proud. I am Osage from both sides of my family. My mother, 
Terry Mason Moore, is descended from her grandparents, full-blood 
original allottees Joseph C. and Rose Mason. Joseph C. Mason was a 
member of the Osage Tribal Council in the 1950s. My mother is a current 
member of the Osage Tribal Council. Her father, Joe Mason, a full-blood 
Osage, is featured as a model of an Osage Chief in the murals contained 
in the rotunda of the Oklahoma State Capitol. My father, Theodore Moore 
Jr, is descended from his great-grandparents, full-blood original 
allottees Amos and Eliza Osage. My family resides in Fairfax, on the 
Osage Reservation, and we belong to the Grayhorse District. I have 
participated in the annual Osage In-Lon-Ska dances in Grayhorse since I 
was able to walk. My father is a tail dancer and my brother Dillon is a 
water boy for the Grayhorse District. I previously served as the 1998 
Osage Tribal Princess. During the past three summers I have worked at 
the Whitehair Memorial, located on the Osage Reservation and part of 
the Oklahoma Historical Society, helping to catalogue Osage documents 
and videotapes. My ties with the Osage tribe are very strong.
    I am 3/4 degree Native American, including 3/8 Osage, but am not 
eligible for enrollment in any tribe but Osage. Because I am not 
enrolled in any tribe, I cannot apply for any Native American 
scholarships that require proof of enrollment in a federally recognized 
tribe. As a college student, and a Native American of a high degree of 
Indian blood, I should be able to access those scholarships. For 
example, I am a Freshman at Oklahoma State University in Stillwater, 
Oklahoma. If I were to have attended the University of Oklahoma in 
Norman, I would not have been considered a Native American student 
under their rules. In the OU application, it is a requirement for a 
Native American applicant to submit a copy of a tribal enrollment card 
to qualify for American Indian scholarships. While I have a Certified 
Degree of Indian Blood (CDIB) from the Bureau of Indian Affairs, a CDIB 
does not mean a person is a tribal member. So if I had applied to OU, I 
wouldn't be recognized as a Native American because of the 
requirements. This is wrong, and it is up to Congress to fix this 
situation.
    Of even greater personal concern to me is that my non-tribal member 
status could actually interfere with my ability to practice my 
spiritual beliefs and fully participate in tribal ceremonies that I and 
my family hold as necessary. I am a member of the Native American 
Church, and the federal government has enacted protections for the 
rights of Native American Church members to practice their beliefs. 
This protection only extends, however, to members of federally 
recognized tribes. It is absurd that I would not receive the same 
protection as a person who is 1/32 Indian who is a member of a 
federally recognized tribe.
    Furthermore, I am also a traditional dancer that requires the use 
of eagle feathers for participation. Because I cannot prove enrollment 
in a federally recognized tribe, I cannot apply for eagle feathers or a 
permit from the U.S. Fish and Wildlife Department.
    Members of the Committee, I humbly ask for your support for this 
important legislation.
                                 ______
                                 
    The Chairman. Thank you.
    Ms. Lookout.

             STATEMENT OF CYNTHIA CHERISE LOOKOUT, 
                        HOMINY, OKLAHOMA

    Ms. Lookout. Thank you members of the Committee for this 
opportunity to testify today. I am honored to have been invited 
to represent my Tribe and to give my viewpoint on this 
legislation. In my Tribe, usually the men in the Tribe, if I 
have something to say, they usually speak for me. So, this is a 
very--I'm very happy about this opportunity to be able to 
speak.
    My name is Cynthia Cherise Lookout. I am twenty 3 years 
old. I am half Osage from Hominy, Oklahoma. I was raised on the 
Osage Reservation and continue to live there. My mother is with 
me today and is a full blood Osage. She was born to Henry and 
Dora Lookout of the Pawhuska District. My great grandfather, 
Fred Lookout, was the Chief of the Osage Tribe for many years 
until he passed. The Lookout family have had prominent roles in 
the political and ceremonial rights of the Osage Tribe.
    I have been raised around my culture. I have witnessed and 
experienced many good and remarkable things. I am here today 
because I think the right to govern ourselves in tribal affairs 
is very important and vital to the Osage people. I believe that 
many things need to be addressed and changed in the way that 
our Tribal Nation functions. We have a federally recognized 
tribe. If the United States recognize us as such, should we not 
have the right to govern, help, support ourselves as a people, 
as a nation.
    I have gone to two tribal elections growing up. I have seen 
the process in which those that get to vote. I've heard endless 
talks about those with more headrights, and what it means to 
have more headrights in tribal elections. Those with more 
headrights or more of a headright have more political power, 
because of the way the voting system is set up. I, as half 
Osage, living on the Osage Reservation, being of legal age, 
cannot vote or even run for a Tribal Council seat if I chose. 
There are things that I have not been able to partake in, 
because of the way the Osage Tribal Government is set up.
    In comparison to other tribes, I thought that we were a 
sovereign tribe, that we had the right to change the things 
that we thought were wrong and to correct those things. I have 
been told many times that Osage Tribe is different from other 
tribes, because of the treaties and acts that we have obtained 
over the years making our laws and government different. I also 
know that the people that signed those documents thought that 
they were acting on the best interest of our tribe.
    Times have changed. Those interests that were important to 
us then are still now. The only difference is that it effects 
us differently. I know that there are many people that have 
attempted to try to change those things before to make things 
better for us.
    As a voter, it would be hard for me to say that I would be 
concerned with other people if I was in their place. I am not. 
So, I have to look at this from their view. I also have to look 
at this from my view, as well as my future generation's view. 
What kind of legacy am I leaving to them? Will I leave them 
something that they will believe in, something that will 
support them if needed. Can I say that I did everything in my 
power to make things best and fair for them.
    I believe that the people that possess headrights are 
mainly concerned with their royalty. I would not want my 
mother's land or headrights taken from her, because of the vast 
majority of non-headright holders that would have a voice and a 
vote on these issues. The issues with the mineral rights seems 
that there can be no real progress until we have a new form of 
government where our government was not centered around the 
headrights. I think that it should be separate from the process 
of governing all, including those like me without headrights or 
land. Indian monies is the main concern with the Tribe, because 
they're the only people with the privilege of voting. The Osage 
Tribe counts me for tribal grants and funding, but I do not 
have the voice in how that money is distributed, because I do 
not have a vote or even a partial vote. I am not a constituent 
of the Osage Tribe, meaning that the representatives on the 
Tribal Council do not have to listen to me. They don't have to 
pay any attention to me or how I feel or what I think 
concerning my tribe. I have to wait until my mother passes away 
before I am a member of the Osage Tribe, before I receive even 
a partial vote. And only then, if she decides to leave me what 
she has. If she decides to leave me out, then I will never be 
able to have a voice. Neither will my children.
    I am a person that believes in education. I went to the 
University of Oklahoma for three semesters, but I was not 
recognized as a Native American by the university, because I 
was not a member of the Tribe. This also disqualified me for a 
Native American scholarship from the university. I would like 
to have a voice in the things that my tribe does. I want to see 
my tribe be able to provide for ourselves, to invest in 
ourselves, to make us stronger as a people. I would like to see 
programs and services for those that need them. I would like to 
see the Osage Tribe depend on themselves, not just the 
government and oil--money they get from oil royalties. I want 
to see a strong and unified nation, one that works for every 
member, every person no matter their social status or what they 
were left. Because that does not make me or anyone else that is 
of Osage descent less of what they are.
    There are so many things that need to be done within the 
Osage Tribe. There are so many issues, so many ideas on what 
could be done. Reaffirming the inherent sovereign rights of the 
Osage Tribe to determine its membership and form of government 
is just a stepping stone for our nation to progress and deal 
with the issues ourselves, issues that we are facing today and 
issues that we will face in the future. I strongly urge the 
U.S. Congress to pass this legislation, so Osages such as I can 
have a right of other Native Americans across the country, 
because without it, I may never have a voice.
    Thank you.
    [The prepared statement of Ms. Lookout follows:]

      Statement of Cynthia ``Cherise'' Lookout, Osage Descendent, 
                              Osage Tribe

    My name is Cynthia Cherise Lookout. I am twenty-three-years-old. I 
am half Osage, from Hominy, Oklahoma. I was raised in Osage county and 
continue to live there. My mother is a full-blood. Both of her parents 
were full bloods. Her grandfather was chief of the Osage tribe 
intermittently from 1912 to 1949.
    I have been raised around my culture. I have witnessed and 
experienced many good and remarkable things. I have written this 
testimony, because I think that the right to govern ourselves is very 
important and vital to the Osage People. I believe that many things 
need to be addressed and changed with the way that our tribal nation 
functions. We are a federally recognized tribe. If the United States 
recognizes us as such, should we not have the right to govern, help, 
and support ourselves as a people, as a nation?
    I have gone to two tribal elections growing up. I have seen the 
process in which those that get to vote, vote. I have heard endless 
talks about those with more headrights, and what it means to have more 
headrights in tribal elections. Those with more headrights, or more of 
a headright, have more political power because of the way that the 
voting system is set up. I, as a half Osage, living in Osage county, 
being of legal age, cannot vote or run for a tribal council seat. There 
are things that I have not been able to partake in because of the way 
that the Osage tribal government is set up.
    In comparisons to other tribes, I thought that we were a sovereign 
tribe, that we had the right to change things that we thought were 
wrong and fix those things. I have been told many times that the Osage 
tribe is different from other tribes because of the treaties and acts 
that we have obtained over the years making our laws and government 
different. I also know that the people that signed those documents 
thought that they were acting on the best interests of our tribe, and 
at that time it seemed to be the best way. Times have changed. The 
United States government has changed as the Osage tribe has also. Those 
interests that were important to us then are still now. The only 
difference is that it affects us differently. I know that there were 
many people that have attempted to try and change these things before, 
to make things better for us as a people.
    As a voter, it would be hard to say that I would be concerned with 
other people if I was in their place. I am not. So I have to look at 
this from their view. I also have to look at this from my view, as well 
as my future generations' view. What kind of legacy am I leaving to 
them? Will I leave them something that they believe in and something 
that will support them if they needed?
    I believe that the people that possess headrights are mainly 
concerned with their royalties. I would not want my mother's land or 
headright taken from her because of the vast majority of non-headright 
holders that would have a voice and vote on these issues. The issues 
with the mineral rights seems that there can be no real progress until 
we have a new form of government, where our government was not centered 
around headrights. I think that it should be separate from the process 
of governing all, including those like me without headrights or land. 
Indian Monies is the main concern with the tribe, because they are the 
only people with the privilege of voting. The Osage Tribe counts me for 
tribal grants and funding, but I do not have a voice in how that money 
is distributed, because I do not have a vote, or even a partial vote. I 
am not a constituent, meaning that the representatives on the Tribal 
Council do not have to listen to me.
    I have to wait until my mother passes away before I am a member of 
the Osage tribe, before I receive a partial vote, and, only then, if 
she decides to leave me a part of what she has. If she chooses to leave 
me out, then I will never be able to have a voice. Neither will my 
children.
    I am a person that believes in education. I went to the University 
of Oklahoma for three semesters, but I was not recognized as a Native 
American by the University, because I was not a member of a tribe. This 
also disqualified me for Native American scholarships.
    I would like to have a voice in the things that my tribe does. I 
want to see my tribe to be able to provide for ourselves, to invest in 
ourselves, to make us stronger as a people. I would like to see more 
focus on providing money for educating the people in my tribe. I would 
like to see programs and services for those who need them. I want to 
see my tribe to be able to provide for ourselves, to invest in 
ourselves, to make us stronger as a people. I would like to see that 
money come from the Osage tribe, not from the government. I would like 
the tribe to be concerned with all of the Osage tribe, not just those 
that have headrights. I want to see a strong and unified nation, one 
that works for every member, every person, no matter their social 
status, or what they were left, because that does not make me or any 
one else that is of Osage descent less of what they are.
    There are so many things that need to be done within the Osage 
tribe. There are so many issues, so many ideas on what could be done. 
Reaffirming the inherent sovereign right of the Osage Tribe to 
determine its membership and form of government is just a stepping 
stone for our nation to progress and deal with the issues ourselves. 
Issues that we are facing today, and issues that will face us in the 
future.
                                 ______
                                 
    The Chairman. I'm sure that your elected representatives 
would have a very difficult time not listening to you.
    Out of curiosity, the two young ladies that are here both 
are in the situation that we've been talking about. If I could, 
just by a show of hands, how many people that are here right 
now that are in that same situation? They're Indian by blood, 
but because of one situation or another, don't have a vote 
right now.
    Thank you.
    While, on the other hand, how many are here that do have a 
vote?
    About half.
    Well, that's interesting. I appreciate the testimony from 
this panel in trying to deal with this issue.
    The situation that you two young ladies find yourself in 
right now I think is something that has led us to this point in 
terms of trying to deal with this legislation. I appreciate 
your testimony here.
    Mr. Yarbrough, it's my understanding that, as this bill 
would be enacted, it doesn't impact the property rights, 
headrights that individual Osage own. It only impacts the 
ability of the Tribe to organize and determine its membership.
    Mr. Yarbrough. Yes, sir. That's our understanding, also.
    The Chairman. And that is--it is with that understanding 
that we are moving forward in trying to deal with this 
legislation. You, in your position, have come here in support 
of the legislation. And it's my understanding that, because of 
the testimony that we received both from previous panels and 
from this panel, that that is a fairly broad consensus amongst 
the Osage people in terms of this is something that has to be 
done.
    Mr. Yarbrough. Yes, sir, very broad.
    My mother passed away 4 years ago. I was on this side of 
the table for a big part of my life. I've been a long time 
advocate of one man, one vote. It was supervising to me when I 
was elected to this position. They elected me by acclamation, 
because they knew what my political views were when they 
elected me.
    The Chairman. The issue in terms of what we're dealing with 
in allowing that--in returning the right to select tribal 
membership and the ability to govern, self governing, has that 
been broadly discussed amongst the Osage people? Has that been 
something that is--everybody is aware that this has moved 
forward.
    Mr. Yarbrough. I think I was sixteen or seventeen years old 
during the Logan versus Andrews case. And I have been 
advocating one man, one vote since I was seventeen. And this 
issue, we've had referendum, surveys. My entire life this has 
been the main issue among the Tribe.
    The Chairman. If somebody were to contact the Committee at 
this point and say that they were unaware that we were looking 
at this legislation, would you be surprised.
    Mr. Yarbrough. I wouldn't be surprised. But I wouldn't know 
why they would be uninformed. No one from the Reservation area 
is uninformed. Everyone is very keen on what we're talking 
about today, and they have been for years.
    The Chairman. We haven't received any letter. I'm just--you 
know, as we're moving forward with this, I have spent a lot of 
time talking to Congressman Lucas about this. Because one of 
the things and one of the reasons why we're here is we want to 
make sure everybody knows that this is what we're doing and 
why, and that there is a broad consensus. I know that getting a 
one hundred percent unanimous agreement is impossible to ever 
do on anything. But we are very interested that we move forward 
with something that there's broad consensus on. And as Mr. 
Kildee said, to right a wrong or to undo an injustice that had 
been done in previous years is one of the reasons why the 
Committee is here, is to make sure that everybody is aware of 
what we're doing and why we're doing it, and that there is 
broad consensus on that.
    Mr. Yarbrough. As long as the headright shares are 
protected, I'm sure there's not going to be any problem from 
our viewpoint.
    The Chairman. Mr. Lucas, Congressman Lucas has stressed 
that, that that has been one issue that, as he was developing 
this legislation and talking with the Tribal leaders, that that 
is something that had to be effective. And it was something 
that was near unanimous agreement on amongst all the folks that 
were working on this. We just want to make sure that everybody 
is on the same page and knows where we're going. As Mr. Kildee 
said previously, this is a bipartisan effort amongst a lot of 
folks in the House of Representatives to try to move forward 
with this. And we want to make sure that everybody knows why, 
and what we're doing.
    So, I appreciate your testimony, and your making the effort 
to be here and to participate in this hearing. Because I do 
think that's something that's extremely important to this 
Committee is that we have more support and as much support as 
we possibly can from the people. So, thank you.
    Mr. Kildee. Thank you, Mr. Chairman.
    Mr. Yarbrough, do the headright shareholders, in general, 
wish to give the Osage Government the power to extend full 
citizenship to those who are not headright shareholders.
    Mr. Yarbrough. Yes, we do.
    Mr. Kildee. I know that was in your testimony, but I think 
it's real important that we clarify that very clearly in this 
record.
    I think that's a very enlightened and a very generous 
position, and it speaks well of the culture of your tribe and 
your nation. I mean I'm personally edified by it. I think that 
shows a great deal of enlightenment.
    Culture doesn't die. The culture lives yet today. And the 
culture that existed back before 1906 is still--you can still 
see that spirit of generosity and the willingness to share the 
political power. And I think that speaks very well of your 
tribe.
    Mr. Yarbrough. Mr. Kildee, most everyone in our tribe 
realizes that this is the right thing to do.
    Mr. Kildee. That's very good. I commend you, commend them 
for that.
    Jessica and Cherise, from your testimony, it appears very 
clear that full citizenship goes beyond just voting rights. It 
goes to your cultural rights. Could you just expand that a 
little bit further.
    Ms. Lookout. I did go to the University of Oklahoma. I did 
get financial aid and stuff. But for people that are on the 
borderline of, you know, not being--not getting very much money 
to go to school--I have a cousin who applied to the University 
of Oklahoma that wanted help with money. And they told him--and 
we tried. They issued membership cards, you know, application 
to try to, you know, see if they could do that. And he was--he 
received one, and they didn't accept it. And then his dad filed 
a letter to ask if they could use that membership card for the 
university, so he could have scholarship money. And they said 
no, that it--because of the 1906 Act, that that membership card 
was not valid.
    Mr. Kildee. Jessica, do you have anything to add to that?
    Ms. Moore. For many other situations of college students, 
there are a lot of Native American scholarships out there that 
can be of use to us, but they require proof of enrollment in 
the Tribe. And people like myself cannot apply for those 
because of not being enrolled.
    Mr. Kildee. Go ahead.
    In Michigan, I and Senator Jesse Vaughn, thirty-five years 
ago introduced a bill while I was in Michigan legislature 
called the Michigan Indian Waiver Act. Any Michigan Indian of a 
recognized tribe can go to college, any public college in 
Michigan and receive fees and tuition. And we had a situation 
there that was very complicated, so I can see where----
    Ms. Lookout. And I do know that there was money given to 
the University of Oklahoma before 1978 before they said that 
you couldn't then leave headrights to non-Indians. They were 
given to institutions such as the University of Oklahoma. But 
you have to be a member of the Tribe to use that, and you have 
to be a male. So, I couldn't use it or any other male Osage 
that was not a headright could not use that scholarship for 
money. So, they're just ganging up on it using our money, but 
we have no access to that.
    Mr. Kildee. And such things as the cultural use of----
    Ms. Lookout. Yes.
    Mr. Kildee. Would be denied you if you're not----
    Ms. Lookout. And a lot of provisions have to be made for a 
lot of different things. Like I like to play basketball, 
independent basketball. And as Native Americans, we love 
basketball. And I play a lot. And if I go out to Albuquerque, 
we have to be a member of a tribe. Well, I'm half.
    So, you usually have to have--get a letter from our Tribe 
or something saying, you know, she will be eventually, maybe. 
And a lot of people, you know, get to know me and say, ``OK. We 
know you're OK. We know who you are.'' But if they didn't know 
who I was, they're like, ``You're not a member. You can't 
participate.''
    Mr. Kildee. Well, let me say this. I think your ancestors 
from Kansas who came to Oklahoma looking down would be proud of 
what you are doing.
    Ms. Lookout. Thank you.
    Mr. Kildee. I see a generosity among your nation that could 
be an example for other nations of the world.
    Ms. Lookout. Thank you very much.
    Mr. Kildee. Thank you.
    The Chairman. Mr. Cole.
    Mr. Cole. Thank you, Mr. Chairman.
    And I want to make the same point Representative Kildee did 
so eloquently. It is remarkable to--we, quite often, find 
ourselves in situations where we see fights over memberships 
and tribes. And where we see people voluntarily extending full 
participation in political rights, to have this degree of 
unity, is just a remarkable statement about the Osage people, 
and something that you should be extraordinarily proud of in 
your history and in your current leadership. And it's just a 
remarkable, remarkable spirit.
    Let me ask you. Do any of you know--I can't--I think of 
parents that must have gone through agonizing decisions about 
passing on headrights. Because you might have a situation where 
it made perfect sense to divide a family's estate in certain 
ways, somebody getting headrights, somebody else getting, 
perhaps, some other kind of property, and on down. But in 
knowing, when you've made a decision like that, if you decided 
to keep headrights intact because it simply made economic 
sense, that you may be depriving one of your offspring of their 
cultural identity and in a sense their status as a unique 
member of the Tribe. Do any of you know parents that went 
through those kind of decisions.
    Ms. Lookout. I don't know. I do know that there are Osages 
out there that have died and never been able to have a voice, a 
political voice in things of this nature. And I know that there 
are probably people in their forties and fifties that are still 
waiting to have a voice. So, it's just not college students 
such as us. They could be as Mr. Freeman, he's seventy-eight, 
until they have a voice or even a partial. And when you leave 
somebody out--I think my mother could say, ``Hey, you know, 
your brothers, they have more kids than you. You may never have 
kids. We're going to--I'm going to give it to the boys.''
    So, then I would never. And if she dies and I have kids, I 
don't have--I'm the youngest of five children.
    Mr. Cole. And again, I mean it's just astonishes--my 
brother and I own an allotment of land, the last part that we 
have in the family together with the right of survivorship. So, 
that would literally mean that--and we both have children. It 
would literally mean that one side or the other would lose 
their Chickasaw identity or heritage in a legal sense the 
minute--you know, whoever died first. Their family is kind of 
out forever in terms of being--with the Chickasaw Nation. That 
would be an extraordinarily difficult to see. And the process 
is just amazing to me. We've gone beyond that as a country a 
long time ago in defining citizenship rights. We did at one 
time with property rights. But the fact that we're doing that 
in the early twentieth century is just remarkable.
    I just, again, want to tell you how impressed I am with you 
as individuals and with, frankly, the spirit behind what you 
have to say. So, thank you for taking your time to come here 
and educate us. Thank you, quite frankly, as a people for 
showing such remarkable vision and foresight and conclusiveness 
in your decisionmaking process. Again, it is quite remarkable 
and quite unusual. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Mr. Carson.
    Mr. Carson. Let me reiterate, as everyone else has said, 
how much we appreciate the testimony from Ms. Moore and.
    Ms. Lookout. Because I think you have given us all of the 
outstanding testimony of how this really impacts people in the 
Tribe. And to Chairman Pombo, thank you, again, for coming in 
from California and everyone here on a rainy Monday morning for 
being here, too. That says much about the commitment of the 
people to have this changed.
    Just a quick question for Mr. Yarbrough. And I may have--
let me know if I misstated the legal issues involved here.
    The mineral estate is held essentially as tenants in common 
to people with headrights. Is that correct.
    Mr. Yarbrough. Yes. That's correct.
    Mr. Carson. And I know we've talked a lot in here about 
protections that the headright owners have. This legislation 
wouldn't effect them.
    Does the Tribal Council have the right to alter the 
disposition of the mineral estate among Tribal members? If not, 
what prevents them from doing that.
    For example, could Tribal Council vote to say, ``Well, we 
recognize that these people all, you know, have headrights 
handed down from the 1906 Act. But we've suddenly decided, as a 
matter of policy of the Osage Nation that owns the mineral 
estate, that we want to allocate it in some different 
fashion''?
    Mr. Yarbrough. My interpretation of what is about to happen 
is that we, as shareholders, will maintain our identify, and 
we'll go on separately, but we'll also be inclusive of the 
Tribe at the same time. So, we'll actually go ahead and conduct 
business as we always have.
    Mr. Carson. Maybe I should--maybe Congressman Lucas can 
answer it or someone. I guess the question is are there 
institutional protectors from the 1906 Act that says you, for 
any reason you couldn't--you couldn't feel free to--what 
institutional protections are there to keep headright ownership 
basically as it has been for the last near century or altering 
kind of the voting membership with this.
    Chief Gray. Well, Congressman, there are clearly protected 
property rights that no activist council would have any control 
over, you know, that particular process. What has been 
statutorily set up is what's policy now. And there's nothing 
that this Council can do, even with the passage of this bill, 
to change that.
    Mr. Carson. Thank you on all of that.
    We have other folks raising their hands on that issue.
    But let me--perhaps we can talk afterwards. I'm sure 
Chairman Pombo wants to keep regular order.
    How many members are there of the Osage shareholders that 
lives here.
    Mr. Yarbrough. Approximately three hundred.
    Mr. Carson. And how many people--we heard earlier that 
about four thousand people voted in the last election. How many 
people do you estimate are shareholders of a mineral estate.
    Mr. Yarbrough. I would think most of them voted.
    Mr. Carson. So, you're talking roughly four thousand people 
or so.
    Mr. Yarbrough. Most of the people that could vote did vote.
    Mr. Carson. So, do you have, from your end, is there a 
census of the headright owners? I mean is there a roll book of 
every--where people go to identify who every headright owner is 
in this.
    Mr. Yarbrough. Well, you understand about the laws of 
confidentiality, right.
    Mr. Carson. Sure. I'm not asking to see it. My question is 
is there--the Tribe has a roll that has all headright owners on 
it, obviously. Otherwise, it couldn't dole out the royalty 
interests.
    Mr. Yarbrough. Yes. That is one of the jobs of your Indian 
Affairs. And when people run for office, they have the 
privilege of maintaining--they don't have the interest amount, 
but they get to know who the people are.
    Mr. Carson. OK. OK.
    Chief Gray. The Bureau of Indian Affairs----
    Mr. Carson. Why don't you join us at the table to answer 
any questions.
    Chief Gray. Congressman, the Bureau of Indian Affairs 
maintains the list of all of the individual shareholders. It is 
a private, protected list. We, as the Osage Tribal Council, 
have no access to the list of those individuals or their 
respective shares. But during--as R.E. was referring to, during 
Tribal Council elections, we are able to obtain a list of names 
and addresses for the purposes of the campaign, you know, to 
conduct our campaigns.
    Mr. Carson. But the Tribe itself, you have no knowledge of 
any particular headright owners' actual interests?
    Chief Gray. No. No, sir.
    Mr. Carson. Thank you, Chief, for educating me.
    The Chairman. Mr. Carson, I think the more we get into this 
the more--the worse it gets. This is something that should have 
been done a long time ago.
    Mr. Lucas. Thank you, Mr. Chairman. And you're exactly 
right. It should have been done a long time ago. Circumstances 
of history have brought us to this point. A reflection of 
probably some good actions and some bad actions. But here we 
are, and on this day considering a bill that will give the 
Osages their ability for voting purpose to determine their own 
membership. I guess my question to the panel would be, even 
with this piece of legislation, although it be made in through 
Congress and signed into law by the President, there's a huge 
responsibility on the Osage people to implement this. The 
determinations about the voting requirements and set of 
procedures and have elections to conduct and implement those 
elections, and the government that will come out of it. So, I 
guess my first question to my two younger constituents here, 
are you ready to rise to the challenge to become personally 
involved in this process, which hopefully is about to open up 
to all Osages, ladies?
    Ms. Moore. Well, I'm ready to take action. I believe that 
it is as well as important for our elders to participate with a 
headright, who haven't official been able to. It's also 
important for the younger generation's voice to be heard, too.
    Ms. Lookout. Our tribe is very, very strong in our cultural 
beliefs. And we have our dances, which she mentioned. And 
everybody participates, and we all come together. And so 
everybody--all Osages of Indian blood are there, and they 
participate. And we come together as a Tribe. And this is the 
only place where it's not--it's unfair. And I'm sure that as 
many people that comes to our dances and even those that don't 
participate would want this and are eager to do this. Because 
this is a part of who we are and part of our culture and what 
we believe in.
    Mr. Lucas. And I'm going to ask Jessica. In your testimony 
you said you were a freshman at Oklahoma State.
    Ms. Moore. Uh-huh.
    Mr. Lucas. Do they handle those issues differently than the 
University of Oklahoma.
    Ms. Moore. For enrollment, it's only required to provide a 
CDIB card to be Native American.
    Ms. Lookout. Each university is different.
    Mr. Lucas. So, let it be noted for the record, Mr. 
Chairman, as a graduate of Oklahoma State University--a very 
cooperative environment.
    The Chairman. I just knew that we would get to that 
eventually.
    Mr. Lucas. When you inherit Wes Watkins' mantle, you've got 
to fly that orange flag every so often.
    Mr. Yarbrough, clearly your goal, so the constituents 
understand the focus of this bill, is on the membership roll 
and on the election process, and the mineral estate issues that 
we've discussed here and are mentioned with that is something 
for another day.
    Mr. Yarbrough. Yes, sir. It is like I said before.
    It's our understanding everything will continue as is. The 
only difference is that these young people are going to have an 
opportunity to vote and participate in government.
    Mr. Lucas. Thank you. Once again, Chief, it's been a 
pleasure to work together on what I think is a very positive 
piece of legislation.
    With that, Mr. Chairman, I give back my time and thank the 
Chairman for the privilege sitting today.
    The Chairman. Well, thank you. And I want to thank our 
panel of witnesses here today. This has been, for me, a very 
informative hearing. I know some of my colleagues here are much 
more familiar with this issue and have worked with it over the 
years. I became aware of this when Congressman Lucas brought it 
to my attention, and when Chief came to Washington and talked 
to me about the importance of moving forward with this. At that 
time, we made a commitment to come out to Oklahoma and to hold 
a hearing and to give people the opportunity to be heard before 
their Congressmen, before their Congressional Committee. And 
I've enjoyed the opportunity to be here. But it has been 
extremely informative for me, and it's something that I can 
tell you we will move forward. The Committee will move forward 
on this. And with Mr. Kildee's help, we will make every effort 
to see that we can rectify this situation in our Committee and 
move through the House of Representatives. This is something, I 
think, is way past due in terms of taking care of this 
situation.
    Again, I will tell the members of the audience, if you've 
not had an opportunity to testify before the Committee, that we 
will hold the Committee record open. If anybody has additional 
comments that they would like to make to appear as a part of 
the official record on this hearing, if you could submit those 
within the next 10 days to the House of Representatives, or if 
you can fax them to Mr. Lucas' office, they can pass them on to 
the House of Representatives, and they will be included in the 
record. And that would, I think, more fully fill out the 
official record that we have today.
    Again, I want to thank all of the witnesses for your 
testimony, Mr. Lucas for allowing us to hold this hearing here, 
my colleagues from Oklahoma for participating, and my friend, 
Mr. Kildee, for making the effort to be here and participate in 
this hearing. I think it was very important to the official 
record.
    If there's no further business before the Committee, then 
the Committee will stand adjourned.
    [Whereupon, the Committee was adjourned.]

                                 <all>

</pre></body></html>
